<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016

                              __________                             

                                          Wednesday, March 4, 2016.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

ROBERT A. McDONALD, SECRETARY, DEPARTMENT OF VETERANS AFFAIRS
          ACCOMPANIED BY:
              DR. CAROLYN M. CLANCY, INTERIM UNDER SECRETARY 
          FOR HEALTH
              ALLISON A. HICKEY, UNDER SECRETARY FOR BENEFITS
              STEPHEN W. WARREN, EXECUTIVE IN CHARGE FOR 
          INFORMATION AND TECHNOLOGY
              HELEN TIERNEY, EXECUTIVE IN CHARGE FOR THE 
          OFFICE OF MANAGEMENT AND CHIEF FINANCIAL OFFICER
              GLENN R. POWERS, DEPUTY UNDER SECRETARY FOR 
          FIELD PROGRAMS

                       Chairman Opening Statement

    Mr. Dent [presiding]. Good morning.
    I would like to bring to order this hearing for Veterans 
Affairs--for the MILCON V.A. Subcommittee. Thank you all for 
attending.
    And today, I am very pleased to welcome Secretary Robert A. 
McDonald, Secretary of the Department of Veterans Affairs, for 
his first appearance before this subcommittee, defending his 
fiscal year 2016 budget request.
    Mr. Secretary, we know you have a lot of important material 
you want to present to us today, and subcommittee members have 
a lot of questions for you and I know competing hearings as 
well. So we would appreciate you being willing to keep your 
opening remarks to within 10 minutes.
    I will also keep my opening remarks to a minimum.
    Secretary Bob, you come before us at a challenging time for 
the V.A. You are trying to recover from the wait list scandal 
and implement the complex new Choice legislation.
    And you are trying to bring about a transformation of the 
agency to make it more veteran-service-centric and certainly 
more customer-friendly, and we appreciate those very good and 
sincere efforts.
    You are also defending an enormous budget increase in your 
discretionary budget of about $5.1 billion, or a 7.8 percent 
increase, which is financed by offsets in the President's 
budget that Congress, frankly, is unlikely to accept.
    I have to be frank with you, Mr. Secretary. Any increases 
are going to be extremely difficult to fund under the 
constraints we have, and all departments are going to be 
affected under the BCA, the Budget Control Act, with a 
government-wide increase in the non-defense discretionary cap 
of $1.1 billion. We can't make room for a $5.1 billion increase 
without taking a machete to important programs in other 
subcommittees. I suspect the chairman may agree with me on that 
point.
    We fully appreciate the complex mission you have at the 
V.A. and share your dedication to making it work better. You 
have a lot of great employees out there, and when I visit 
facilities, I am always extraordinarily impressed by your 
medical team and all the allied health professionals.
    The subcommittee welcomes the opportunity to learn about 
your vision for addressing the V.A.'s problems and reforming 
the agency so that we are sure we are giving veterans who want 
to use the V.A. the services they deserve.
    Mr. Bishop is not here at the moment.
    I am going to quickly yield to the chairman and then to the 
ranking member of the full committee for their opening 
statements.

               Full Committee Chairman Opening Statement

    Mr. Rogers. Thank you, Mr. Chairman, and congratulations, 
by the way, on assuming this chair.
    Mr. Dent. Thank you.
    Mr. Rogers. This is your first hearing?
    Mr. Dent. Third hearing.
    Mr. Rogers. Third hearing? Well, Okay. You are off to a 
good start.
    Anyway, congratulations to you, and best wishes.
    Mr. Secretary, we are glad to have you here.
    You have ranked some very impressive credentials to this 
job from the private sector, and we are looking for great 
things from you and your staff. You've got your headaches, 
you've got your problems, but I feel like you are the man for 
the job. We congratulate and welcome you to this subcommittee 
for your first time.
    The V.A. is charged with carrying out an essential 
responsibility of the U.S. government, and that is ensuring the 
health and well-being of our nation's vets, who selflessly 
serve with dignity and honor.
    This charge brings a host of challenges: providing our 
veterans with timely access to quality health care, ensuring 
that they receive appropriate compensation for disabilities, 
and fighting the persistent problems of veterans' homelessness 
and substance abuse.
    Just last summer, we were made aware of gross mismanagement 
and negligence on the part of this department. Veterans were 
kept on wait lists for months, awaiting health care services 
and treatments that they have been guaranteed by their 
government and deservedly so.
    We can all agree that treating our veterans this way is 
unacceptable, and I commend you for your willingness to face 
these serious issues head on and the actions you have taken to 
right the ship.
    Among the changes you have made to the V.A. care model is 
the implementation of the Veterans Choice program. The Choice 
program has offered thousands of veterans the opportunity to 
get off lengthy wait lists and seek treatment outside of the 
V.A. health care system.
    We are beginning to see progress on the wait lists, and 
veterans now have access to health care facilities closer to 
their homes. But even with this progress, more work remains.
    Many veterans who should qualify for the Choice program 
have been denied access by the V.A. These veterans either live 
more than 40 miles from a V.A. facility or must drive distances 
in excess of 40 miles to reach one due to geographical 
impediments.
    This department must take steps to ensure that the 40-mile 
rule and qualifying exceptions are applied evenly and in a 
timely manner.
    While we continue to hone and improve new programs, such as 
Veterans Choice, it is critical that V.A. does not lose sight 
of important modernization initiatives that Congress has been 
promoting for years.
    One such initiative is digitizing V.A.'s medical records.
    Mr. Secretary, your budget includes $141 million for 
scanning files and medical records into digital format, which 
is the same as your fiscal 2015 allocation.
    For 2015, the committee provided an additional $40 million 
for three specific purposes--regional-office staffing, 
digitized scanning and the centralized-mail initiative--yet you 
have only allocated $10 million of that for scanning and 
centralized mail.
    Eliminating the need to locate and transfer paper records 
will streamline the claim and benefit process tremendously. We 
need a strong commitment from the department to make this a 
reality.
    I have visited one such center and noticed the huge bundles 
in a file, bound maybe this thick--paper, that is shipped all 
around the country trying to find its place.
    You are digitizing those records, which means you can 
electronically, instantaneously access that file without having 
to ship it from Burbank, California. So I really hope that we 
can see more of this.
    Another initiative Congress has been emphasizing for some 
time now is the implementation of the electronic health-record 
system that is interoperable with the DOD system.
    Your budget requests $233 million for the V.A. electronic 
health record and sets aside $50 million of that for achieving 
the interoperable capacity.
    I appreciate your commitment to that initiative in the 
budget and the work you have done to stand up a framework that 
will allow your record system to work with DOD's. And you have 
all heard me talk about this one instance a few years ago. A 
vet from my district was injured by a bomb in Iraq, and he lost 
one eye. The other eye was severely injured.
    Then he was discharged, and the eye begins to act up. So he 
goes to the V.A. hospital in Lexington, and V.A. declines to 
treat him. They were afraid to operate not knowing what had 
happened in the DOD hospital in Germany, and they couldn't get 
the records.
    So he lost his other eye simply because of the incapability 
of these two bureaucratic agencies to work together. That is 
going to stop, and you are making a really good start, and I 
appreciate that very much.
    I continue to be concerned that until DOD awards a contract 
to produce its record and V.A. shows demonstrable progress with 
modernization of its record, we can't be sure that this goal 
will be achieved in the near term.
    I can't emphasize strongly enough the importance of 
achieving interoperability with DOD's electronic health-record 
system. If these two systems can't talk to each other, which I 
find incomprehensible, we continue to run the risk of service 
members receiving inadequate care and undergoing inadvisable 
procedures.
    We need more than words on this critical issue; we need 
results. In fact, we are demanding results.
    We had a meeting less than a year ago with the Secretary of 
Defense, and the Secretary of V.A., and we talked about this 
extensively. Both sides agreed to work it out. But both sides 
are protecting their own turf.
    And so you will find language in your appropriations that 
puts you under the gun on this, and we are going to do the same 
with the DOD, which we have been doing for several years.
    And finally, let me stress to you the seriousness of the 
problem of prescription-drug abuse among our vets.
    We have all seen in the news the V.A. hospital in Tomah, 
Wisconsin that some are referring to as ``Candy Land.'' We now 
know that officials there have been overprescribing opioids and 
possibly even contributing to the abuse of these drugs by our 
veterans.
    I am pleased to see that the V.A. Office of Inspector 
General is investigating that case. It is my hope that this 
investigation will lead to safer practices among those treating 
patients suffering from drug addiction.
    This committee is also interested to know what other 
actions the department is taking, regarding these disturbing 
developments in Wisconsin, and I hope you touch on that today.
    As part of your opioid-safety initiative, it is important 
that the V.A. continue to pursue alternative remedies to 
prescription opioids and consider new technology such as abuse-
deterrent drug formulations and tamper-resistant packaging.
    It is also critical that we continue to invest in tried and 
true models like veterans treatment courts. These courts which 
require regular court appearances, drug testing and treatment 
sessions are integral to helping our veterans find a way 
forward and out of addiction.
    This committee stands ready and willing to tackle these 
issues with you head on, and we hope that your department will 
remain a committed partner in the fight against prescription 
drugs, which the Center for Disease Control now says is a 
national epidemic.
    We look forward to learning how you plan to offer more 
timely and accessible health care to our vets and fulfill the 
promise that both Congress and the V.A. have made to serve 
them.
    Thank you.
    I have to go to another couple of hearings. I am going to 
miss part of your testimony, which I regret.
    Mr. Chairman, thank you.
    Mr. Dent. Thank you, Mr. Chairman.
    I want to second your statement, particularly the issue of 
the interoperability between the V.A. and the DOD health 
record. It is very important. It is a priority, I think, for 
all of us.
    At this time, I would like to recognize distinguished 
ranking member, Mrs. Lowey.

            Full Committee Ranking Member Opening Statement

    Mrs. Lowey. I too would like to thank my friend, Chairman 
Dent. Congratulations.
    And unfortunately, Ranking Member Bishop, who has worked on 
these issues for a long time, I know he has worked with you, he 
couldn't be here today.
    But this is a very important hearing, and I would like to 
welcome Secretary McDonald and your assistants and all of our 
distinguished guests this afternoon.
    As the subcommittee reviews the fiscal year 2016 
President's budget request, we have the tough mission and 
responsibility to ensure the funding of the Department of 
Veterans Affairs adequately addresses some very serious issues.
    The number of current veterans and those transitioning into 
the V.A. health care system is staggering. We must ensure that 
we have the right programs and services these men and women 
deserve for their service to our nation. We made certain 
promises to our veterans. We are obligated to deliver.
    In your short time, Mr. Secretary, your efforts have led to 
reductions in the claims backlog, accountability in your 
workforce and initiation of several new programs to meet the 
growing demand and concern of all veterans.
    Specifically, I applaud the use of technology in the V.A. 
to further automate the claims submission and approval process, 
which I understand has reduced the overall wait time by 138 
days for a decision.
    And I just want to say, the chairman and I have been so 
frustrated. We have had four hearings. A couple of public 
hearings, a couple of closed door hearings. It is beyond me, 
frankly, that you can't get this done. And I know you are 
working towards that end. I won't put up pictures of all the 
old files that were kept in boxes. But it is such a disservice 
to the men and women who served our country with such 
distinction. Frankly, I still can't understand that the people 
who send our young men and women in harm's way, our government, 
can't get this done. But I am glad you are working on it, I am 
glad there is progress.
    It is amazing to me, in the private sector, you leave a 
job, you take the chip, bring your health care information to 
the next employer, and we are still going through boxes. But 
thank you for the progress that has been made.
    And I look forward to the day, Mr. Chairman, and Mr. Big 
Chairman, when we can hear ``mission accomplished,'' and that 
it would be completed. Because we know there is so much more 
work to be done.
    At last count, by the way, the claims backlog was still 
around 214,000. And then there are more claims that are 
continuously added into the system.
    I hope you move this process forward expeditiously.
    I am also very concerned about the amount of qualified 
medical personnel necessary to address the increasing number of 
veterans in serious issues like mental illness, post traumatic 
stress disorder, traumatic brain injury, and suicide 
prevention, especially in remote areas where there are limited 
or no V.A. facilities.
    I know we are in a fiscally uncertain environment. The 
Budget Control Act remains. There may be some impact to certain 
services in programs where veterans are a top priority. And 
while there is cause to celebrate some successes, we can and 
must do better. We are committed to working with you going 
forward.
    And I think it is important, Mr. Chairman, and I know the 
chairman is struggling with the numbers, and we don't know 
exactly the numbers that we are dealing with but I think it is 
important when the numbers are released and we get an analysis 
of what those numbers will do to the whole process.
    So, Mr. Secretary, again, welcome. I, too, want to 
apologize, because we have about four hearings today. But I 
look forward to continuing to talk with you, working with you. 
And I just want to say in closing and expedite that process--I 
am glad to know that you have new facilities for records, but I 
still can't understand why it is taking so long.
    Thank you very much for the progress you have made and 
thank you for your service.
    Mr. Dent. Thank you, Mrs. Lowey, for your comments.
    At this time, Mr. Secretary, your full statement will be 
included in the official record. After you introduce those who 
are accompanying you today, please feel free to begin.
    And members are reminded that we will be operating on a 5-
minute rule for questions. So, with that, Secretary Bob.

                     Secretary's Opening Statement

    Mr. McDonald. Thank you. Thank you, Mr. Chairman.
    I have with me today Under Secretary Hickey and Under 
Secretary Clancy, who will join me, as well as our CFO, Helen 
Tierney and Steph Warren, who runs our I.T. operation. And 
hopefully, we will get a chance to get into detail on some of 
the issues that you all raised, like the electronic health 
record.
    Chairman Rogers, Chairman Dent, Ranking Member Lowey, 
Ranking Member Bishop, members of the subcommittee, thanks for 
the opportunity to discuss the 2016 budget and 2017 Advanced 
Appropriations request.
    I appreciate the opportunity to speak with many of you 
prior to this hearing. We deeply appreciate Congress' and the 
President's steadfast support for veterans, their families, and 
survivors, as well as the assistance of veterans service 
organizations.
    As V.A. emerges from one of the most serious crises the 
department has ever experienced, we have before us a critical 
opportunity to improve care for veterans, and to build a more 
effective system. With your support, the V.A. intends to take 
full advantage of this opportunity.
    Members of this Committee and VSOs share my goal to make 
the V.A. a model agency with respect to customer experience, an 
example for other government agencies. With efficient and 
effective operations, we look to be comparable to the top 
private sector businesses.
    The cost of fulfilling our obligations to veterans rose 
over time because veterans' demands for services and benefits 
continue to increase as wars end.
    In 2014, 22 percent of Vietnam veterans were receiving 
service-connected disability benefits. That is four decades 
after the war ended. We expect the percentage will continue to 
increase. And it is worth remembering that today, almost 150 
years after the Civil War, V.A. is still providing benefits to 
the child of a Civil War veteran.
    We still have troops in both Afghanistan and Iraq. Yet, in 
the last decade, we have already seen dramatic increases for 
demand for benefits and care.
    From 1960 to 2000, the percentage of veterans receiving 
V.A. compensation was stable at about 8.5 percent. But in just 
14 years, since 2001, the percentage dramatically increased to 
19 percent, more than double.
    Simultaneously, the number of claims and medical issues in 
claims has soared. In 2009, VBA completed almost 980,000 
claims. In 2017, we project we will complete over 1.4 million 
claims. That is a 47 percent increase.
    But there has been more dramatic growth in the number of 
medical issues in every single claim; 2.7 million in 2009 and a 
projected 5.9 million in 2017. That is a 115 percent increase 
over just 8 years.
    These increases were accompanied by a dramatic rise in the 
average degree of veterans' disability compensation. For 45 
years, from 1950 to 1995, the average period of disability was 
30 percent. Since 2000, the average period of disability has 
risen to 47.7 percent.
    So, while it is true that the total number of veterans is 
declining, the number of those seeking care and benefits is 
increasing dramatically. Fueled by more than a decade of war, 
Agent Orange-related claims, an unlimited claims appeal 
process, increased medical claims issues, far greater survival 
rates for those wounded on the battlefield, more sophisticated 
methods for identifying and treating veterans' medical issues, 
and importantly, the demographic shifts--our veterans are 
aging, veterans' demands for services and benefits exceeded 
V.A.'s capacity to meet them. It is important that Congress and 
the American people understand why that is happening.
    The most important consideration is that American veterans 
are aging and retiring. Just 40 years ago, only 2.2 million 
veterans were 65 years old or older. That is 7.5 percent of the 
population. In 2017, we expect 9.8 million veterans will be 65 
years or older. That is 46 percent of all veterans.
    We now serve an older population with a greater demand for 
care, more chronic conditions, less able to afford private 
sector care. Currently, 11 million of the 22 million veterans 
in this country are registered, enrolled, or use at least one 
V.A. benefit or service. More are demanding V.A. services and 
care than ever before.
    Requirements for women veterans and mental health care have 
increased dramatically. Over 635,000 women veterans are now 
enrolled for health care. And over 400,000 actively use V.A. 
That is double the number in the year 2000.
    Annual increases in women veterans seeking care, about 9 
percent. And this trend will continue.
    Our women veteran call center now connects with over 
100,000 women veterans per year.
    In 2014, over 1.4 million veterans with a mental health 
diagnosis entered VHA. And we had 19.6 million mental health 
outpatient encounters. That is an increase of 64 percent and 72 
percent, respectively, since only 2005.
    Since its inception in 2007, our veterans' crisis line has 
answered over 1.6 million calls, and assisted in over 45,000 
rescues. As veterans witness the positive changes V.A. is 
making, and as the military downsizes, the number of veterans 
choosing V.A. services will continue to rise. It should, and 
they have earned it.
    We are listening hard to what veterans, Congress, employees 
and veterans service organizations are telling us. What we hear 
drives us to a historic department-wide transformation, 
changing V.A.'s culture and making veterans the center of 
everything we do.
    We call it MyVA, and it entails many organizational reforms 
to better unify the department's efforts on behalf of veterans. 
MyVA focuses on five objectives to revolutionize culture and 
reorient V.A. on veterans' outcomes, rather than internal 
metrics.
    First is improving the veteran experience so that every 
veteran has a seamless, integrated and responsive customer 
service experience every single time.
    Second, improving the employee experience by eliminating 
barriers to customer service and focusing on our people and our 
culture so that we can better serve veterans.
    Third, improving our internal support services.
    Fourth, establishing a culture of continuous improvement to 
identify and correct problems faster and replicate solutions at 
all facilities.
    And last, enhancing strategic partnerships. The American 
people, many partners want to join us in this effort, and we 
welcome them inside the tent.
    MyVA is reorganizing the department geographically and 
that's the first substantial step in achieving this goal. In 
the past, V.A. had nine disjointed geographic organizational 
structures, one for each one of our nine lines of business. Our 
new unified organizational framework has one national 
structure, which is five regions.
    This aligns V.A.'s disparate organizational boundaries into 
a single framework. This facilitates internal coordination and 
collaboration among our business lines, creates opportunities 
for local level integration, and promotes effective customer 
service. Veterans will see one V.A. rather than individual 
disconnected organizations.
    Last, MyVA is also about ensuring sound stewardship of 
taxpayer dollars. We will integrate management improvement 
systems, such as Lean Six Sigma, across operations to ensure we 
balance veteran-centric service with operational efficiency.
    But we need the help of Congress. V.A. cannot be a sound 
steward of the taxpayers' resources with the asset portfolio we 
carry. No business would carry such a portfolio, and veterans 
deserve better.
    It is time to close V.A.'s old substandard and 
underutilized infrastructure. Nine hundred V.A. facilities are 
over 90 years old, and more than 1,300 are over 70 years old. 
V.A. currently has 336 buildings that are vacant, or less than 
50 percent occupied.
    That is 10.5 million square feet of excess space costing an 
estimated $24 million annually to maintain. These funds could 
be used to hire roughly 200 registered nurses for a year, pay 
for 144,000 primary care visits for veterans, or support 41,900 
days of nursing home care for veterans in community living 
centers.
    We need your support to do the right thing. MyVA reforms 
will take time, but over the long term they will enable us to 
better provide veterans with services and benefits they have 
earned, and that our nation has promised them.
    Our 2016 budget will allow us to continue transforming to 
meet the intent of MyVA. It requests $168.8 billion; a $73.5 
billion in discretionary funds, and $95.3 billion in mandatory 
funds for benefit programs. The discretionary request is an 
increase of $5.2 billion, or 7.5 percent above the 2015 enacted 
level, providing resources to continue serving the growing 
number of veterans seeking care and benefits.
    The budget will increase access to medical care and 
benefits for veterans. It will address infrastructure 
challenges, including major and minor construction, 
modernization and renovation. It will end the backlog of 
claims, and it will end veteran homelessness in calendar year 
2015. It will fund medical and prosthetics research, and it 
will address important I.T. infrastructure and modernization.
    The resources required in the 2016 budget request are in 
addition to those Congress provided last year in the Veterans 
Choice Act. V.A. has implemented the Act. We want to be 
successful, and we will be expanding our outreach, and 
providing more information to veterans with a nationwide 
public-service announcement, which we will share with you the 
link so that you can see it.
    But we don't know at this time how many veterans will use 
the provisions of the Act to seek non-V.A. care, or how much 
that care will cost. There is a high degree of uncertainty, as 
there is in any free marketplace with choice. Our current 
estimates of demand range from a low of about $4 billion for 
Choice Act, to a high of about $13 billion over a 3-year 
program.
    We will need flexibility within our budget to ensure that 
we have the right resources at the right place, at the right 
time, to provide veterans the timely care they need, regardless 
of where they choose to get that care. As an example of this 
flexibility, we are currently exploring options to review the 
40-mile provision of the Choice Act to get more veterans the 
care that they want.
    I look forward to working with this committee, with other 
members of Congress, with veteran stakeholders, on this 
critical issue. We meet today at a historically important time 
for V.A. and our nation. Today marks the 150th anniversary of 
President Lincoln's solemn promise to care for those ``who 
shall have borne the battle,'' and for their families and their 
survivors.
    That is V.A.'s primary mission, the noblest mission 
supporting the greatest clients of any agency in the country. 
Mr. Chairman, members of the committee, thanks again for your 
support for veterans, for working with us on these budget 
requests, and for making things better for all veterans. We 
look forward to your questions, sir.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                             THE CHOICE ACT

    Mr. Dent. Thank you, Mr. Secretary. Mr. Secretary, I have 
to begin with an issue I view as critical to the future of the 
V.A., and we have discussed this. And I know this view is 
shared with members of the subcommittee.
    The Choice Act, as you know, is bifurcated, reflecting the 
different views of the members of the House and Senate 
authorizing committees at the time. On the one hand, the Choice 
Act sets up a system for non-V.A. care to be provided in 
situations where distance or wait time prevent access to direct 
V.A. health care.
    But it also finances a hiring of almost 10,000 new V.A. 
medical staff, and more than 200 facility leases and 
construction projects in an effort to strengthen capacity for 
direct V.A. care. This is a rhetorical question, but is this 
bifurcated system sustainable in the long term? Can we afford 
to build up the V.A. system with its aging infrastructure, at 
the same time as we develop non-V.A. care alternatives?
    I personally think that non-V.A. care is a great and 
underutilized alternative, particularly in the aftermath of 
what happened in Phoenix and elsewhere around the country. Many 
veterans have high-quality, non-V.A. facilities in their 
neighborhoods, but aren't able to use them, and instead have to 
travel great distances for V.A. care.
    Let me be clear, I understand and support the need for the 
V.A. to provide specialty services in areas like polytrauma 
injury, PTSD, TBI, Agent Orange, behavioral health, and other 
areas. But why shouldn't we rely on high-quality, private-
sector providers for more routine, non-service-related care?
    That is really my question. And for you, Mr. Secretary, 
given where I live and many members live, we have some world-
class facilities that just really cannot be utilized by many of 
our nation's veterans who deserve the best.
    Mr. McDonald. Mr. Chairman, we share your vision for hybrid 
or integrated system of the future, an integrated system of 
V.A. care and non-V.A. care. Looking at it from the veterans' 
perspective, we want the veteran to get the care they need, 
wherever it is most convenient and that care is available.
    Outside care is something the V.A. has been about for quite 
a while. In fact, over the last year, our non-V.A. care 
appointments have increased about 48 percent. So that is a 
large increase. That is even before the Choice Act.
    With the Choice Act, we now have the ability, as you said, 
if you are outside 40 miles, if you are beyond 30 days of 
getting more people access to outside care. It is very early in 
the days of the Choice Act. The last cards were mailed in 
January. We started in November.
    We set up the program in a period of months. And so we are 
not yet certain how many veterans will take advantage of the 
Choice Act. And we would like to continue opening the aperture 
of the Choice Act so more veterans can take advantage of it.
    We are now getting in contact with all veterans to make 
sure they are aware of it, since many of the cards were sent 
out over the holidays, and may have been lost. We are also 
airing a public service ad, which is on our web-site, and we 
would be happy to share that ad with you. And we are doing 
everything we can to get more providers into the system.
    But so far, we have not seen the full impact of the Choice 
Act. And we want to work with you on redefining it in order to 
get more people into it.
    Mr. Dent. In my observation, is many veterans are aware of 
the program, but for whatever reasons, they are not eligible; 
either they don't meet the 40-mile requirement, or a scheduling 
issue. But as a quick follow up, would the idea of a mix, or 
integration of the V.A. in private sector, could that help us 
to address the facility challenges that you so clearly 
articulated in your testimony? Would this help us predict where 
veterans will be geographically in order to build the 
facilities years in advance?
    Mr. McDonald. We think it will. If you look over our recent 
past, we have been leasing more facilities and creating more 
community-based outpatient clinics than we have the big, large 
hospitals. That is a trend in the medical industry. And it is 
one that we think is appropriate in order to get care out to 
where the veterans actually live.

                     RESTRUCTURING V.A. HEALTH CARE

    Mr. Dent. And I would also mention, too, last week a group, 
Concerned Veterans for America, released a report called 
``Fixing Veterans Health Care.'' The report prescribes a major 
restructuring of the V.A. health care.
    Among its proposals, this bipartisan task force recommends 
that future veterans be required to enter a new V.A. insurance 
system with varying levels of coverage. Currently-enrolled 
veterans would be able to continue using V.A. health 
facilities, or shift to subsidized care to private providers.
    It also calls for the closure of inefficient V.A. medical 
facilities similar to your testimony. Mr. Secretary, I know you 
issued a statement rejecting the report saying that, ``Although 
there is an important role for non-V.A. care in supplementing 
V.A. health care, reform cannot be achieved by dismantling the 
V.A. system or preventing veterans from receiving V.A. care.''
    I am certainly not endorsing the report in its entirety, 
but I do think it could jumpstart a healthy debate about how to 
more efficiently and cost-effectively provide care to veterans. 
I would be curious about your thoughts.
    Mr. McDonald. Well, as you said in the statement that I 
issued, we felt that many of the proposals advocated 
contracting out this sacred mission that we have for care for 
those who have borne the battle. We think there is an important 
role for outside care, as I have said. We think there will be a 
hybrid system, an integrated system in the future, to 
supplement V.A.'s own care.
    But we don't think that diminishes or obscures the 
importance of V.A.'s health care system. We think reforming 
V.A. health care can't be achieved by dismantling it and 
preventing it, or preventing veterans from receiving the 
specialized care and services that can be provided by V.A.
    Our goal continues to be to provide that care for veterans, 
and we are happy to meet with anyone to discuss any ideas. We 
believe every idea is on the table. But we are going to look at 
it through the lens of what is best for veterans.
    Mr. Dent. Thank you. My time is expired. I would like to 
recognize the very distinguished ranking member.
    Mr. Bishop. Thank you very much, Mr. Chairman. At this 
time, Mr. Farr, he is ranking member of the Agriculture 
Subcommittee, and he has a hearing that he needs to be in 
presently. So I am going to yield to him, and allow him to go 
first.
    Mr. Farr. Thank you very much for yielding, Mr. Bishop. And 
thank you, Mr. Chairman. Thank you very much, Mr. Secretary, 
for coming here. And thank you for your service. You know, the 
most frequently asked question in Congress is ``why don't we 
run government like a business?''
    I don't think anybody has come before this committee with 
more business background than you have; CEO and President of 
Procter & Gamble, which was awarded the best company for 
developing leader talent. The list goes on and on.
    Also, I think your training in the military in the 82nd 
Airborne and in jungle warfare is going to be very helpful. You 
are coming before a Congress, which has just told you that 
despite this incredible testimony with probably more reform and 
suggestion in it than any opening statement I have ever heard 
from a secretary in any department, that you are not going to 
get the money you are after.
    I hope, Mr. Chairman, when we finally get these numbers, 
and we are taking the Veterans' budget and cutting and 
squeezing and trimming it, we can bring the Secretary back and 
have a real, transparent discussion on what those cuts are 
going to mean and what is going to happen as a result. Mr. 
Secretary, you put in here how we can fix the things that are 
broken, you also indicate that you are going to need money to 
do that. It can't all be done just by savings. For example, I 
think your idea of a ``BRAC for veterans facilities'' may be 
worth looking into but endeavors like that cost money.
    Also I want to tell you that I appreciate you going out and 
seeing cemeteries, as you have. A week from Friday, I am 
dedicating the California Central Coast Veterans Cemetery in my 
district. Your department has been very helpful in its creation 
and I wanted to thank those in your department who worked in 
that.

                       HEALTH CARE ACCREDITATION

    You indicated in one of the Chairman's questions about some 
sort of combined professional network involving the public and 
private sector that could help provide more mental health 
practitioners. I am very concerned that because of PTSD TBI, 
and other mental health issues, our veterans in California are 
suffering unnecessarily due to a shortage of appropriate 
doctors. I know that Congresswoman Barbara Lee is very 
concerned about this, too. We can't find marriage and family 
therapists to work for the V.A. because the V.A. has an 
accreditation issue in California. I really want you to go back 
and find out what initiated the ruling on this issue. We can't 
hire marriage and family therapists in the V.A. unless they 
have graduated from institutions that have specific 
accreditation curriculum.
    California has 95 percent of certified marriage and family 
therapists who cannot qualify to work for the V.A. They went to 
Stanford, they went to Berkeley. I mean, this is nuts. I can't 
believe that they can't take steps to correct that.
    We are opening the first jointly designed DOD/V.A. clinic 
on the Monterey peninsula, next year and we are having a heck 
of a problem trying to hire a psychiatrist to come there. You 
are having even a harder time getting marriage and family 
therapists. A lot of them in the community would love to go 
work for the V.A. I hope that you will check what steps the 
V.A. is taking in providing and maintaining a significant 
number of mental health practitioners.
    When can you accept the credentialing of California 
marriage and family therapists as part of that professional 
core that you want to increase?
    Let me also ask you to look into the backlog with the board 
of appeals. Mr. Secretary, the amount of money you are 
committing to that is going to be cut, in these reductions the 
chair is talking about. He is not the only chair--every chair 
of every appropriations committee is giving the warning, Mr. 
Secretary. What we do here is, we have all these nice hearings 
on what the President has proposed. Then we get the numbers 
from the Budget Committee. And then we go behind closed doors, 
and cut the hell out of everything. Then we adopt it without 
any public transparency. I hope this year will change that, and 
that we have subsequent hearings once we get the numbers, 
saying ``this is what you are asking'', ``this is what you are 
going to get.''
    What are the consequences? Because that is what we are 
supposed to relay to our constituents. So, if you could look 
into the marriage and family counseling and the backlog on the 
board of appeals, I would appreciate it.

                        LOCAL COMMUNITY SUPPORT

    Lastly, let me just ask, if local law enforcement officers 
are coming to me and they say that the V.A. needs to assist 
local law enforcement officers and VSOs in dealing with 
suicidal veterans who should they contact to help these people 
that they know from the local community are in harms' way? 
There is no kind of crisis core in the V.A. who can go out with 
law enforcement and intervene in these crises with veterans, 
who have real problems. I would like to see if we could develop 
that enterprise. Thank you.
    Mr. Dent. Would you like to respond quickly, Mr. Secretary?
    Mr. McDonald. Yes, sir.
    First of all, relative to our employment initiative, we are 
recruiting. This week I was at the University of Delaware 
School of Nursing, and it was my 13th medical school trying to 
recruit people. So we do desperately need people.
    We talked about the issue in California. I would ask Dr. 
Clancy to do a deep dive on that. Maybe let her report on that.
    Dr. Clancy. So, thank you, Mr. Secretary. Congressman, we 
have a group taking a very hard look at this again. You have 
the facts exactly right, in terms of our initial interest in 
hiring marriage and family therapists who have graduated from 
an accredited program by a commission with a very long name, 
because we wanted to make sure that we had people with the best 
skills to meet the needs of veterans, which can be fairly 
complex. My understanding is that some of the newer programs 
have actually sought that accreditation. But we would be happy 
to follow up in terms of looking at other opportunities for us 
to bring this cadre of folks in to help veterans.
    Mr. McDonald. Relative to the peace organizations, we do 
have a national peace organization, well trained to deal with 
veterans, particularly those with traumatic brain injury. It is 
their role to reach out to the community, connect with the 
community, make sure that the local community is aligned.
    Mr. Farr. What they need when the crisis occurs, is to have 
somebody they can call who knows the veterans. Local law 
enforcement can't always talk them out of a situation.
    Mr. McDonald. Absolutely. We will follow up on that. We are 
working very hard to strengthen our security organization, 
particularly in light of what happened in El Paso, and this 
will be one of the things we build into it.
    Mr. Farr. Thank you.
    Mr. Dent. Thank you. At this time, I would like to 
recognize Mr. Jolly, of Florida.
    Mr. Jolly. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here this morning.
    I have a couple quick questions, specifically on 
appropriations matters.

                             CLAIMS BACKLOG

    You and I spoke about the backlog in benefits; it is a 
priority of mine. And I think the next story after the V.A. is 
going to be the VBA if we don't solve the backlog.
    Your budget requests $85 million, for 770 new FTEs, as well 
as $230 million additional for I.T., sorry, an addtional $85 
million. Mr. Secretary, do you believe that will have a 
demonstrable impact on clearing the backlog, or are we just 
keeping up, as best we can?
    Mr. McDonald. I think we will have a demonstrable impact. 
And, as we talked, the number of claims is going up. The number 
of issues per claim is going up. We have committed to ending 
the backlog by 2015 and then keeping it down. I would draw your 
attention to the pictures in my written testimony of the 
Winston Salem VBA office, where on one picture, you see all the 
files that Chairman Rogers was talking about. The other 
picture, you see no files. Because everything has been 
digitized.
    We have done all we can with digitization, with mandatory 
overtime. Now, we need more people.
    Mr. Jolly. And ending the backlog is defined how?
    Mr. McDonald. 125 days.
    Ms. Hickey. So, I just wanted to let you know, Congressman, 
that actually, we are well on target to end the disability 
rating claims back on the 125 days. We are--right now, we have 
reduced that backlog from 611,000 down to 214,000--almost 
400,000 that are no longer in backlog.
    We also have at the same time increased the quality of our 
claims. Well over 90 percent on the medical issues level and 96 
percent on--90 percent claim level, 96 percent at the medical 
issue level. We will do that. But your question is about the 
current budget.
    The current budget is focused on the appeals, non-rating 
and fiduciary requirements. Those are all direct results of 
doing 1.32 million claims.

          OFFICE OF INSPECTOR GENERAL'S FY 2016 BUDGET REQUEST

    Mr. Jolly. Well, I understand. And I appreciate your 
attention to this. Quite frankly, it was something that I would 
support; this is an issue of significant concern. Very quickly, 
on the OIG budget, what is the increase in the OIG budget?
    Mr. McDonald. The increase that was in the----
    Mr. Jolly. Request.
    Mr. McDonald [continuing]. The real request--we have had 
subsequent conversations with the OIG--is $15 million. We 
support that request.

    [Clerk's note: The official request is $355,000 above FY 
2015.]

    Mr. Jolly. What percentage is that?
    Mr. McDonald. I don't know exactly.
    Mr. Jolly. Is the increase in the OIG budget comparable to 
the 7.5 percent increase in the overall VA discretionary 
request? Is it less?
    Mr. McDonald. We will do the math and get back to you. It 
is $15 million. We have a lot of investigations going on and we 
need to get through them, get them over with.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  COMMUNITY MENTAL HEALTH PARTNERSHIP

    Mr. Jolly. Another appropriations question--fisal year 
2014, there was a request for the department to pursue 
community mental health partnerships. To use excess capacity in 
major metro areas to provide non-V.A. mental health services. 
Has there been any movement on that?
    Mr. McDonald. There has been a significant movement. In 
fact, I will let Carolyn talk about it. I wanted to mention 
something you and I had talked about earlier--strategic 
partnerships. Home-Base, in Boston where I visited, funded by 
the Boston Red Sox. Serving veterans with TBI, with PTSD. We 
are very supportive of activity. We want to create more of this 
strategic partnership.
    Dr. Clancy. So, we do actually actively partner with a 
number of practitioners in the private sector to help serve the 
needs of veterans. And the good news is, we just learned that 
we have figured out how to make sure that they have easy access 
to our continuing education materials. Rather than our kind of 
shipping them in paper, now they can actually get online 
directly and get their continuing education credits, which I 
think only strengthens them.
    Mr. Jolly. The 2014 bill directive actually provides for a 
demonstration project. Is there anything--have you actually 
defined a demonstration project in this? Or are you just using 
non-V.A. providers when you need them?
    Dr. Clancy. I think that we have done some of both, but I 
am going to have to follow up with you on that one.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      FALSE NOTIFICATION OF DEATH

    Mr. Jolly. And then one last thing just for the record. You 
and I spoke about this. I appreciate your attention to it. But 
I do want it to be on the record. We have had several cases of 
veterans and veteran beneficiaries, who have been notified 
falsely of their own death.
    I understand from the V.A.'s perspective that it results 
from the Social Security Administration sending over a notice. 
We know it is disruptive to the veteran. The V.A. has always 
resolved it, but it is a disruption that takes a month or 2 to 
solve. So I would appreciate your continued attention.
    Mr. McDonald. We actually talked this morning after our 
discussion, and we are going to go big into the Social Security 
Administration and find out what is going on. Because we have 
to take responsibility for that. The veterans are ours.
    It is devastating.
    Mr. Jolly. Thank you for that. I appreciate it. Thank you, 
Mr. Chairman.
    Mr. Dent. Thank you, Mr. Jolly. That reminds me of the old 
George Bernard Shaw statement that ``the rumors of my death 
have been greatly exaggerated.'' Something we certainly don't 
want to have happen. Mr. Bishop.

                     VETERANS CLAIM INTAKE PROGRAM

    Mr. Bishop. Thank you very much, Mr. Secretary, Dr. Clancy, 
and the other panel members. Your fiscal year 2016 budget 
request includes $140.8 million for the Veterans Claim Intake 
Program, which is a continuation of a scanning program that 
began scanning in September of 2012.
    I have a couple of questions about this. First, how many 
scanning contracts does the V.A. have for that program? And 
second, how many documents are scanned per month, and what 
happens to the documents after they are scanned? And then once 
the document has been scanned, how long does it take to get the 
completed package to a claims processor?
    Mr. McDonald. Let me let Allison answer that, but I just 
want to say that the scanning process is absolutely essential. 
It allows us to digitize the claim, which allows us to have a 
national workflow. We can move those claims anywhere in the 
country that has time and effort to get it done. It is one of 
the things that has led to the reduction, the backlog. Allison?
    Ms. Hickey. So Mr. Ranking Member, first of all, one 
contract. It is a performance-based contract, so we have two 
large companies that participate in it. And they are rewarded 
for doing better. So there is a performance competition base 
there.
    Four sites, one of which is in Newnan, Georgia, another in 
Kentucky, a third in Wisconsin, and a fourth in Iowa. We have 
successfully scanned more than 1.3 billion images since the 
start, at 99 percent quality. And that has effectively allowed 
us to reduce our paper inventory down to a remaining 25,000 
claims out of the 477,000 in the inventory.
    So we are 95 percent paperless right now. And we do all of 
our claims works now in the digital environment, minus those 
25,000 we are trying to get out. The companies have done a very 
good job of building quality assurance into this. We have 
mandated that for the contract. They have four to five layers 
of quality assurance to ensure the reliability.
    But to the point of what happens to the paper? We are 
paying a lot of money for the contractors to hold the paper 
while they are waiting on the DOD decision, because these are 
DOD records. We are working actively with DOD to the Benefits 
Executive Committee to make that decision. We will be involving 
our veteran service organizations in that final decision on 
what is the proper disposition of those records.
    I will tell you that I have today, sitting in regional 
offices across the country, half a million cubic feet of paper 
we are no longer using or touching. We are waiting on the 
simple disposition decision on what to do with those paper 
records. Because we are doing most of our business through the 
electronic digital environment; in fact, more than a million 
claims, and more than 2 million rating decisions.
    Mr. Bishop. Thank you. So when do you think that decision 
will come?
    Ms. Hickey. So Congressman, I am going to try to talk a 
little quieter. I apologize. My good Irish voice carries loud.
    So we are working literally right now on a decision with 
DOD. They are newly incentivized to move faster on this issue, 
because they are now storing paper from what they are scanning 
in their central cells for the services to bring us the records 
across from HAIMS.
    So we are literally right now, as we are working, I suspect 
sometime this year we will have a final decision. When we do, 
that will, as I expect, require resources to move us into that 
environment of proper disposition of those records. And that is 
not in the current budget right now.

                     V.A. AND DOD INTEROPERABILITY

    Mr. Bishop. All right. I recently read that VistA is no 
longer in contention to use by DOD for the electronic health 
records, which is not surprising, because it was clear that DOD 
historically has wanted nothing to do with VistA. What steps 
are being taken to make sure that whatever system that DOD 
chooses, this will be able to share information with it?
    I know that this is well before your time, Mr. Secretary. 
But as you know, the veterans department and DOD were directed 
to develop an electronic health record system. And can you tell 
us why it has been so difficult to achieve?
    Mr. McDonald. Ranking Member Bishop, I have said many times 
since I came in this job that we shouldn't punish veterans or 
servicemembers by having boundaries between organizations that 
get in the way of their care.
    So we take it very seriously that we have got to integrate 
with DOD on the electronic health record. It is one of the 
first things I looked at. And I have been to our sites, San 
Antonio, for example, where we run a hospital with DOD, and we 
have V.A. and DOD doctors looking at the same medical 
information on the screen.
    So I would like Steph Warren, if I could, to do a little 
bit of a deep dive on this, to bring the committee up to speed. 
And we would be happy to come over and do demonstrations for 
you in your office for your staff.
    Mr. Warren. So to hit your point about interoperability, 
top question was with whatever system DOD purchases, is 
interoperability guaranteed?
    DOD, no matter what system is bought, the requirement to 
maintain the interoperability that we have accomplished will 
continue. So we talked in prior hearings about a tool called 
Janus, which today, allows us to look at the DOD record and the 
V.A. record in the same screen simultaneously. So that 
interoperability, the ability to see the record in the care 
setting is happening today.
    Mr. Bishop. May I just interrupt you for a second? Didn't 
we in Congress, both the authorizers and the appropriators, 
direct DOD and V.A. to use one system, as opposed to two 
systems?
    Mr. Warren. So the interoperability in terms of the 
information sharing and doing, we are doing that using the same 
services. Both of the departments approximately 2 years ago--
and I believe we had a joint hearing. I think it was the 
largest hearing I had ever been in, with 50-plus members.
    We talked through how the mission differs between V.A. and 
DOD and drove DOD to a decision in terms of buying an end-to-
end system with a logistics tail, and that we would continue to 
work with the VistA system, which is a veteran-centric 
solution, and keep evolving it forward.
    Mr. Bishop. It is my understanding, though, that the system 
that you are using prohibits the manipulation of the data. So 
basically, it is viewing only. So it is not really 
interoperable, because, you know, a doctor at V.A. can't 
manipulate the information there, so that is not very helpful 
in what we are trying to get to. And we really instructed both 
DOD and V.A. to have one seamless system.
    And of course, this was before the Secretary's tenure, both 
departments seemed to have backed off from that and just said, 
``Well, we wanted interoperability.''
    But it just makes no sense to me. And I have continued to 
really labor over the question of why it is that DOD and V.A. 
want to have stovepipe systems that is just going to allow them 
to view it.
    Mr. Warren. If I could, the viewer is to show the ability 
to view the data. There is a key point that we need to make 
sure we lay out there.
    If you look at the DOD side with respect to care, the 
majority of their care takes place outside of their health care 
delivery system--it will also take care of--it will be given 
outside of whatever their new system is.
    On the V.A. side, with the third-party care we have been 
giving, as well as what the Choice Act will be doing, a large 
amount of our care will also be outside of that health care 
system. Our biggest challenge is how do you move the data 
between different systems? How do you present it up in a care 
setting?
    Janus shows that you can do it. The data gets translated so 
it is the same. All Janus did was to show that you could do it, 
yes, in a read-only. Right now, the enterprise health 
management program, which is--in San Diego, moves it to the 
next step, which is the ability to go in--
    Mr. Bishop. Why couldn't both departments have one system? 
And if you have outside care, have the outside providers 
certify it to utilize and to enter that system with secured 
access so that only people who are authorized can enter the 
system? But if you have one system, everybody is going to 
access. It is simple.
    Mr. Warren. Sir, I wish it was that simple. When we talk 
about health care delivery, the viewer is how the clinicians 
interact with the data. But the systems we are talking about 
are more than just the viewing of the data. It is the pharmacy 
system, it is the immunization system, it is all of the other--
--
    Mr. Bishop. I understand that.
    Mr. Warren [continuing]. A medical center.
    Mr. Bishop. I understand that.
    Mr. Warren. So buying one big system that does all that 
stuff, if you go look at the national health service in the 
U.K., they showed that one system could not do all that stuff 
across all those different places.
    And so what is key is how do you make sure the data moves 
between the systems, not just V.A. and DOD--in a way that 
clinical care can take place. And I believe that is the path we 
are on, and we have been able to show that we can accomplish--
but glad to come and sit down more, walk you through and show 
you how those systems are working together, and how the data is 
formed.
    Mr. Bishop. I am just not convinced that the technology 
can't be fashioned to accomplish that. But my time is up, and I 
will come back a little later.
    Mr. Dent. Thank you. Thank you, Mr. Ranking Member. And I 
am sure there will be more questions on that particular topic. 
Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I appreciate, Mr. Secretary, our visit yesterday. And I 
appreciate the spirit of the other testimony that we have 
heard. You know, it is okay if you speak too loud, especially 
with issues that frustrate not only members of this committee, 
your agency, as well as the veterans and the people that we 
serve. Certainly, South Central Florida has its share of 
retirees and veterans.
    One of the things that I was most impressed with, Mr. 
Secretary, when we visited was the kind of background that you 
have, and the business acumen that you bring to the table. And 
I think that when people read your resume and get to know you, 
not to say that previous secretaries haven't been able to 
accomplish what they set out to do, but the fact of the matter 
is, we are still talking about a lot of the same things that we 
have been talking about since I got to Congress 6 years ago.
    You know, as Mr. Bishop alludes to, one of the big 
frustrations for me, as a veteran myself, is when you join the 
Army and things are kind of prescribed for you, and you are 
sort of told where to stand, what to say and what to do, and 
then when you get out of the Army, and you kind of hear this, 
``Well, you know, the orders for the prescriptions aren't 
exactly the same,'' or, ``We are just getting around to our 
computer systems being able to communicate and understand each 
other,'' that is the kind of thing that when you join the Army, 
or you join one of the other branches, you assume are already 
taken care of. And when you find out that they are not, I think 
that that is the most frustrating thing.

                   FRUSTRATIONS AND FUTURE INNOVATION

    So my question revolves around your background and some of 
the things and the frustrations that we have heard. You don't 
have a lot of time in this job, I assume. And what time you 
have here with being a former CEO of a major company, what do 
you honestly think that you are going to be able to accomplish 
for veterans? What kind of innovation?
    I have a question, drafted out here for me about VSOs and 
our local counties that want to be able to be more active in 
screening, and things like that, at the county level. Maybe 
that is part of it. And you talked yesterday about, you know, 
consolidation of some of the people that are doing the same 
job. And that is all great.
    But I think that you as a spokesman, getting out there and 
showing the kind of frustration that we have heard, the 
American people were responding to me like, ``I like that guy. 
I agree with him. He is a CEO. He is not,'' you know, no 
disrespect again to former secretaries, but what can you--what 
has been your biggest frustration? What kind of innovation do 
you think you will be able to bring to the table so 6 years 
from now, this committee isn't still talking about these same 
things, like prescription orders aren't marrying up, and 
computers aren't talking to each other? So if you could talk to 
that, I would appreciate it.
    Mr. McDonald. First of all, Congressman Rooney, thank you 
for the question, and thank you for your service. Everything we 
put together, we are not looking at as a time-bound exercise. 
But I would hope that everything we have talked to you about in 
terms of MyVA, the reorganization we are talking about, I think 
we can certainly get done over the next couple of years.
    My biggest frustration from the very beginning was the lack 
of focus on the veteran. It was a sense that we were an 
organization, as I went around--and I have been to over 100 
sites now of V.A.--employees were telling me they felt like 
they were prisoners of a system that they couldn't change.
    The single message I am giving employees every time I go 
somewhere and I do a town-hall meeting is, ``No, this is your 
V.A., too, and you can change it.''
    I have embraced union leadership, 65 percent of our 
employees are union members. This leadership team, this group 
of employees, is going to change the V.A., is going to put the 
veteran at the center of everything we do.
    My first national press conference, which I think was in 
September, I gave out my cell phone number nationally. It is 
available on the Internet. And I would like members of Congress 
to do the same.
    And I get calls every single day from veterans. And I like 
that, because I am able to figure out what is going on. We 
stood up a team of people to help me with it, but I like to 
answer the phone.
    I did that deliberately, because I wanted to demonstrate to 
everybody during a time of crisis, it is normal organization 
dynamic, and normal human dynamic, that people turn inward, and 
in a sense become more bureaucratic, and worry about their own 
survival.
    What we need to do is turn outward, care about veterans, 
embrace veterans. And I see those changes happening right now. 
I hear it on my phone at night when I am able to answer the 
calls. And I get a lot of letters. And we respond to every 
single one of them. That is a big change.
    Ms. Hickey. So, Congressman, first thing I will ask you as 
a veteran, if you have your eBenefit account, if you don't, I 
would like to come over and help you get it. But you don't need 
me to, because we have built a complete online capability from 
a veteran at 2:00 in the morning, if you are reading a long 
bill, and you decide you want to file a claim, you can go 
online, you can file your claim online.
    You can upload your own medical evidence online, and your 
three-and-one computer, turn it into a PDF and give it to us. 
You can find out the status of your claim online. And it all 
goes now into the VBMS system where the digitization has 
occurred that was spoken about earlier. And the decisions can 
be projected to you when they come out online.
    All that has been built in the last 3 or 4 years while we 
have been transforming VBA. While I will fly on the airplane 
while we were building it--sorry, former airmen as well, so I 
am going to use that analogy. So we have fundamentally changed 
VBA already, but we are not done yet.
    There are a lot of things in this budget that we need to 
fundamentally change three other parts of a benefit allowance 
to a veteran. And I will tell you straight up, appeals. Appeals 
are wired in law, worse than tax code.
    There are two opportunities for you to help us with 
appeals. One is change the law, and there doesn't seem to be a 
lot of appetite for it. But I have submitted all the 
legislative proposals.
    And the second is you have got to give me a whole lot more 
people to do that work. I have got no other way to do that 
better. Law or people, authorizers or appropriators. I don't 
care. What I care about is veterans getting a better answer.
    Mr. Rooney. Thank you.
    Mr. Dent. Thank you. I just want to point out for the 
record, I made that particular quote about the rumors of my 
death being greatly exaggerated. I attributed it to George 
Bernard Shaw. I believe it was Mark Twain. So with that, I 
recognize Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Mr. Secretary, I want 
to welcome you and your colleagues to the committee. We 
appreciate the energy and determination you have brought to the 
V.A. in a short period of time.
    And I appreciate the background you bring to this; the 
business background, the military background, and I should say 
also the educational background, because I am well aware of the 
value you have rendered to Duke University's Fuqua School of 
Business, as one of their major advisers.
    A lot of handwringing today, as there always is, about the 
constraints we are operating under. Maybe we need to remind 
ourselves that these are not written in stone. They are the 
results of very explicit political failings.
    The Budget Control Act still hovers over us, and haunts the 
work of this subcommittee with its centerpiece of 
sequestration. Sequestration, however, is self-inflicted 
damage. It was not supposed to occur. It is the result of a 
very specific failure to address the main drivers of the 
deficit; tax expenditures and entitlement spending.
    This body, having failed to address those, has fallen back 
again and again on appropriated spending. So we need to do more 
than just decry this, we need to change it, need to take 
specific steps to overcome it, that really would mean a 
comprehensive budget deal that deals with the main drivers of 
the deficit.
    But if we can't get that, we at least need another year-
long budget deal, a la Ryan-Murray, to get us off of 
sequestration and with some numbers we can work with here. And 
this applies of course to this subcommittee, and probably even 
more to other subcommittees.
    So the resource constraints are serious here. And yet, a 
lot of the problems that you have identified call for 
additional resources, particularly personnel resources. And 
that is what I want to ask you about very specifically.
    We are all aware of the unacceptable wait times for primary 
care, mental health, patients at various facilities in my 
district, around the country. We know that this is linked in 
part--this is what I want to ask you to assess--linked in part 
to a lack of primary and mental health care providers in the 
system, particularly at more rural locations.
    So I want to give you a chance to address that problem 
system-wide. Is the lack of manpower, womanpower, a primary 
obstacle to achieving acceptable wait times, and adequate care 
in general? I know you visited a lot of medical schools, 
including Duke University, I would say. Glad you came there. 
You spoke to medical students about coming to work for the V.A.

                  HEALTH CARE STAFFING AND RECRUITMENT

    How did you do? How are you doing? What can you do to 
recruit the best and brightest young people in the medical 
field? Where are the most serious shortages? What specialties, 
what areas of practice?
    And then how much is this a matter of compensation? What 
else is going on here? What is your assessment, having looked 
at this, I know, very carefully? What is it going to take 
besides an adequate appropriation to solve the problem?
    Mr. McDonald. Thank you, Congressman Price. Great 
questions. Staffing is a big issue for us. Roughly, we are 
short about 4,000 physicians and about 10,000 nurses.
    I have been to roughly over a dozen medical schools. Duke 
University was the first medical school I visited. And we are 
competing against some of the for-profit systems in the country 
to attract the best and brightest doctors and nurses we can 
find.
    One of the first things I did as Secretary was to raise the 
salary bands of our doctors in order to pay them competitively. 
That has helped our recruiting effort. And if I look over the 
last nine months, we have hired roughly 900 doctors, net-new.
    So in other words, we have had some leave. Our retention 
rate is very good. We have had some leave. But we have got 
roughly 900 more new doctors. And that is good. We have hired 
over 1,000 nurses.
    So that has been very helpful. But while getting the 
providers is helpful, and paying them competitively is helpful, 
the other thing I am up against is just in a sense the aura 
that exists in this country that V.A. is somehow a terrible 
place to work. And I am pleased that the Chairmen and Ranking 
Members of our two committees, House and Senate, Veterans 
Affairs committees, have come to V.A. We have town-hall 
meetings, national town-hall meetings, so that the members of 
the committee could express themselves to the employees about 
how much they respect what they are doing, and how important it 
is.
    The other barrier we face is the infrastructure. We have 
11.5 percent roughly female veterans right now. It is going to 
grow to 20 percent. And our buildings are over 50 years old. 
They were built at a time when you had one gender of bathroom, 
where you didn't have space for women's clinics. And one of the 
things we know about women veterans is they prefer to enter the 
building and exit the building in a different place than the 
men. So we are in the process of trying to retrofit those 
entries. But that is why our construction budget is so 
important.
    One last example, and I will end, is part of the problem in 
Phoenix that we talked about was providers, was the doctors and 
nurses. When I went there, we needed 1,000 new people the day I 
was there. That was right after I was confirmed.
    But one of the problems that didn't get much publicity, is 
we only had one clinical room for each doctor. And the average 
doctor has three clinical rooms; one where the patient is 
getting ready, one where the patient is being examined, one 
where the patient is getting ready to leave. So this is a 
fundamental issue.
    Last point is, I talk a lot about V.A. being the canary in 
the coal mine for American medicine. Our shortage of primary 
care physicians, our shortage of mental health professionals, 
is a national shortage. And that is why I go to the medical 
schools, is to try to increase the throughput, and increase the 
residency, so we can get a greater number of mental health 
professionals and family care physicians.
    Dr. Clancy. Just a couple of other points, because I know 
that you expressed a particular interest in rural health care. 
One of the areas I think where we are doing very well is in 
virtual care, particularly telemental health, which frankly, 
makes it very--much, much easier for some veterans who don't 
always find any complex facility all that easy to navigate, and 
so forth.
    We are doing enough of it that we are starting to talk now 
about whether we actually need to train and hire people who are 
virtualists. There are companies that do this now. We could 
actually have an internal group that does that.
    The other part--and I just want to thank you and your 
colleagues for--is the loan reduction program. We now have, for 
the first time, the opportunity to pay the lenders back 
directly. What we have been doing before, if you think about 
how indebted many of these students emerge from post-graduate 
training with, is when they paid, then we reimbursed.
    So if they fell behind, they didn't get the reimbursement. 
You can see where this gets into a kind of vicious cycle. Now 
we can pay the lender back. So not only can we offer that to 
new people coming in, we can actually help some of our own--it 
is both a recruitment and a retention tool, which I think is 
going to be phenomenal.
    And ultimately, the mission is what really attracts people. 
You ask, though, what is the hardest? I would say primary care 
and mental health. Both, as you probably are aware, are not 
incredibly well-paid specialty areas. Both were in stiff 
competition with the private sector.
    You probably saw the report yesterday from the Association 
of American Medical Colleges I think saying we are short 90,000 
physicians or something along those lines. But that is what we 
are working at.
    The point about spaces, we actually do have a tool now to 
assess productivity so that in addition to broad messages about 
we need space, people, and so forth, we can actually help 
facilities figure out what is the rate limiter for them. Is it 
really more the space, the people, and so forth?
    Mrs. Roby. Thank you, Mr. Chairman, and thank you for being 
here. I do want to echo the sentiment of my colleague, that we 
appreciate the time that you have taken to meet with us prior 
to today's hearing.
    But I think a couple of the points that were discussed are 
worth mentioning again for the benefit of those that are in 
this hearing room today, and for the American people, and for 
my constituents in Alabama, too, who have suffered. These 
veterans have suffered horribly at the hands of bad actors.
    Mr. Chairman, Central Alabama V.A. Health System is one of 
the worst in the country. We had one of the first directors 
actually removed under the new law that we passed because his 
behavior and the decisions that he made and the culture he 
created was so disastrous and horrible, that he was actually 
removed.
    And you of course know all of this. And you are keenly 
aware of the situation. I appreciate Sloan Gibson, Deputy 
Secretary, for his presence in Alabama consistently working 
with my staff to provide us updates.
    As I told you, Mr. Secretary, last evening, that I am 
looking forward to the day when I can stand with you behind the 
podium and celebrate the successes of the V.A. But we are not 
there, and you know that.

                     ACCESS TO CARE--THE CHOICE ACT

    And there is still a real distrust, because the numbers 
that we were presented as it relates to access to care, were so 
false and wrong. So we will continue to work with you on that.
    I do think, as you mentioned, that you are dealing with a 
huge bureaucracy, and feeling your way through it, that there 
are some real solid ideas here that you have heard from the 
chairman and others throughout this as it relates to access to 
care. And we know the V.A. does a lot more than just that. But 
for right now, we have a lot of sick veterans that need access 
to care.
    And for me, in light of what took place in Southeast 
Alabama, I really want the focus to be down there on how do we 
get more veterans access to good-quality care in a timely 
fashion, and both with Choice--the Choice cards and with PC3, 
Patient-Centered Community Care, which is a huge priority to 
me. We have wonderful private medical facilities in Southeast 
Alabama, where these veterans could access care immediately, 
rather than having to go to Atlanta, or some other facility.
    So I want to continue to be helpful in any way that I can, 
to push these programs, that this committee could be helpful in 
ensuring that we allow veterans to have access to outside 
providers. And then we have all these aging facilities that 
need repair how do we figure out a way to find the cost savings 
in bricks and mortars, and use that money for our veterans to 
access care?
    So I know these are all priorities of yours, because I have 
heard you say that. The one thing that I did want you to 
elaborate on is the authority to reallocate the Choice funding, 
as you have stated, that you have been mischaracterized on what 
your ideas are.
    One thing I am concerned about is that Congress gave the VA 
$15 billion for Choice. And you were saying that there is 
uncertainty right now in knowing how much access veterans and 
how many veterans will utilize the Choice program.
    So if we could just talk about that in a little bit more 
detail, because I really think that this is a huge part of the 
solution to getting towards this hybrid system that would allow 
our veterans to have good-quality health care.
    Mr. McDonald. I was--one of my surprises when I came back 
to government was the inflexibility of being able to serve 
customers. I am used to the private sector. I am used to, if a 
customer wants to buy Tide, we have Tide for them. If they want 
to buy Dash or whatever, we have Dash for them.
    The inflexibility of moving money from one line item to the 
other, despite the fact that the consumer, the veteran, has a 
choice, doesn't make much sense to me. It is analogous to 
having two checking accounts at home; one is for gasoline, one 
is for food. And you can't move money between the two. The 
price of gasoline falls in half, and you are hungry, you want 
to buy food. But you can't do that.
    Because of the Choice program, we have given the veterans a 
choice. You, the Congress, have defined by law the benefits 
that veterans get. I am trained to execute and provide those 
benefits, but yet, you control both the benefits they get, and 
you control the money I have to spend to deliver those 
benefits. I am kind of a prisoner of the system.
    All I was saying with the request for flexibility was--and 
I am happy to come back with you at the appropriate time--as 
these programs, as we begin to integrate these programs with 
the only intention of serving veterans, let's make sure we have 
a discussion that we have the money in the right place, and 
that we have enough money in the right place, that we can 
provide the veterans the care that the laws that we pass said 
they deserve.
    I just want to make sure we have that conversation, because 
I can't predict the free market with 100 percent certainty.

                             40 MILES RULE

    Mrs. Roby. Sure, I appreciate that. Mr. Chairman, one quick 
thing about the 40-mile rule. I am concerned that the 
definition is not clear about the distance driving, or as the 
crow flies. What do we need to do to modify language so that we 
ensure that it truly is for those that are 40 miles away.
    Mr. McDonald. When the law was passed, and the way the 
Congressional Budget Office scored it, it was 40 miles 
geodesic, meaning as the crow flies. We have been given 
enthusiastic support by both of our authorizing committees to 
take another look at that 40-mile criteria.
    We are in the process of doing the review right now. We are 
going to come back to the Congress with a reinterpretation in 
an effort to open the aperture. We have had roughly a half a 
million calls to our call center about the Choice Act. But 
only--that has resulted in only about 30,000 appointments or 
so. And about half of those are because of 40 miles, about half 
of those are because of 30 days, the 30-day limit.
    That is just not a big enough take rate. So we are trying 
to do a better job marketing. We are contacting veterans. We 
are also running a public-service ad I talked about. We want to 
see how far we can push it.
    At the same time, we want to, as quickly as possible, 
redefine that 40-mile limit, which is the biggest barrier, and 
come back to members of Congress with that reinterpretation.
    Mrs. Roby. Okay, great. Thank you. I yield back. Thank you, 
Mr. Chairman.
    Dr. Clancy. Can I just add one thing? Congresswoman, I just 
wanted to thank you for your commitment to, and persistent 
attention to the Central Alabama facility. So today, our top 
analytics team is visiting with them, both helping them 
understand their data, which I think has been a big, big change 
for us, this relentless focus on how we are doing, and also how 
to deploy tools that we have built, so that they can identify 
some of the problems that occurred there at a much earlier 
stage. So just wanted you to know that.
    Mr. Dent. I would like to recognize Ms. Lee at this time.
    Ms. Lee. Thank you very much, Mr. Chairman. Good to see 
you, Mr. Secretary, Dr. Clancy, Secretary Hickey.
    Now, I tell you, a couple of things--I have to preface the 
question and statement. First of all, I am the daughter of a 
veteran. My dad died several years ago. So as the daughter of a 
veteran, I know the V.A. system very personally. And I just 
want to say to the three of you that I think you made a lot of 
progress. I have had to deal with the V.A. on a personal basis.

                 OAKLAND REGIONAL OFFICE CLAIMS BACKLOG

    But not enough yet. And I have a lot of concerns, very 
grave concerns regarding the funds that have already been spent 
on updating our veterans claims backlog. Again--and I think 
Secretary Hickey--we have met several times with the California 
Delegation as it relates to the Oakland V.A. Regional Office, 
which is in my district.
    And we have seen money appropriated to fix the backlog. But 
it still remains--and veterans still, who deserve their 
benefits, they are still dying before they can receive their 
benefits.
    And I want to read to you just a brief excerpt from--now 
this was February 25, 2014, just recently, CBS News report. 
Okay, and I want to make sure that this is accurate or not. I 
hope it is not.
    ``Last week, the V.A. Inspector General confirmed that 
because of poor recordkeeping in Oakland, veterans did not 
receive benefits to which they may have been entitled. How many 
veterans is not known, because thousands of records were 
missing when inspectors arrived. The V.A. declined CBS News' 
repeated interview request, but it did admit to widespread 
problems in the handling of claims, but blamed that on the 
transition from a mail basis to the new electronic system. The 
V.A. said in a statement, `Electronic claims processing 
transformed mail management for compensation claims greatly 
minimizing any risk of delays due to loss and misplaced mail.' 
''
    Now, there have been several whistleblowers, of course, out 
of Oakland. And in this report that CBS presented February 
25th, there was one individual who said that the V.A. took the 
files, put them--told them to put them in a file and stuff them 
away.
    There were 13,000 veterans begging for help. When this 
employee raised her concerns, she said she was taken off the 
project, and then this past summer, they found a cart of these 
same claims, and they were ignored again.
    Can you explain this to me? Is this accurate or not? And 
what is taking place with the Oakland V.A. office in the 
backlog?
    Ms. Hickey. So I don't know what station Mr. Paul Harvey 
used to talk about. But there is a much bigger rest of the 
story that I would love to be able to present to you.
    First of all, the 13,184 pieces of paper they found were 
duplicate copies of an informal claim. It isn't even a real 
claim yet. It is a duplicate copy of an informal claim. They 
were in an old process that used to be done in VBA long before 
I got here. They used to make copies of things to keep track of 
them.
    And so those were the 13,184 pieces of paper put in the 
drawer. At the same time, those same 13,184 veterans came in 
with their formal original claim. We worked those all as they 
were coming in. They were not set aside.
    Those 13,000 copies were sitting in a drawer. The originals 
were being worked by the employees, the hardworking employees 
in the Oakland Regional Office, or as you well know, because we 
have talked about this, many other hardworking employees across 
the nation who we brokered out, or sent out that work. So no, 
no veteran was waiting on those 13,184 while they were sitting 
in a drawer. That was a copy.
    Second thing I would share with you is we did not misplace 
any of those 13,184. They were in that drawer. We brought in--
we actually, by the way, discovered, because I sent in a help 
team to help Oakland. And when we found them, the employee did 
exactly the right thing; raise the issue and said, ``There are 
13,184 in there. We need to do something.''
    They told us about it. I called the I.G. and said, ``Full 
transparency. I want you to get in there and make sure what is 
going on with those 13,184,'' and they did.
    We set up special teams that took every one of those copies 
against the original file that we work--we had already worked. 
And we matched every single one twice, a full 100 percent 
review of every single one against those copies of those 
informal claims to make sure we had it right.
    At the end of the day, we completed those two complete 
looks last September, on the 5th of September, and we found in 
the process of reviewing, there were about 403 to be exact, 
where we said, ``You know what, we probably could have made a 
better decision on those 403 claims than we did when we worked 
them.''
    And so we made some adjustments. All of them are complete. 
None were missing. No malfeasance in that whole effort. No 
intention to hide anything. We just had those 13,000 copies 
over there.
    That practice has been discontinued. That practice was not 
a practice by the new director who was out there, who is doing 
a terrific job. And today, Oakland, by the way, backlog is down 
70 percent from when we were visiting when it was so bad in 
that same 2012-2013 time frame. They are doing much better. 
Their quality is up substantially. All the investments you 
helped us do to make them better are seeing good fruit.
    Ms. Lee. I appreciate that. But then maybe you need to call 
CBS and clarify this, because this report is all over the 
place. Also, in it, it indicates that the V.A., the Inspector 
General, mind you, confirmed that because of poor 
recordkeeping, and Oakland veterans did not receive benefits to 
which they had been entitled, and this is the I.G. quote. So 
you need to clarify that I think, because if in fact that is 
not the case, you know, we need to know that. The I.G. needs to 
know that.
    Ms. Hickey. I think the I.G. has worked very hard on this. 
And I really appreciate their effort. They are looking at lots 
of things with us right now. And I think their point is well 
taken.
    As you well know, we weren't doing a very good records-
keeping job during that whole time where we were not in great 
shape in Oakland. I think that is exactly what they are 
pointing out to us, and the fact that we had a drawer of copies 
is still inappropriate, and not good recordkeeping.
    We have resolved that. We have fixed that. So I think in 
this case, the I.G. was right. We shouldn't have had those 
copies just sitting out there in a drawer somewhere. We should 
have properly disposed of them when we were complete with the 
claim.
    Ms. Lee. So do we know how many veterans should have been--
should have received their benefits that did not receive their 
benefits?
    Ms. Hickey. Of the 13,184, all of them got their claims 
worked as we received them. When we did the reviews, we found 
about 400 where we went, ``You know, we could have made a 
better decision there.'' But that is the 400 I am talking 
about.
    Ms. Lee. Okay.
    Ms. Hickey. They had received a decision already, and they 
had received benefits already. We were able to up their 
benefits.
    Ms. Lee. Okay. Thank you, Mr. Chairman.
    Mr. Dent. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Mr. Secretary, 
good morning. Welcome. Thank you all for your testimony this 
morning. I think it should point out, in light of all of the 
challenges and difficulties you are facing, Nebraska, by 
certain measures, has had one of the best outcomes for service 
to veterans, particularly in terms of the measure of process, 
time for processing claims.
    I think we were one of the states that actually took on 
additional caseloads when other systems were under such severe 
stress. So I am proud of that. It doesn't diminish, though, the 
need obviously to continue to work aggressively across the 
nation. But to the degree that we have served as a valuable 
template, service delivery, we are happy to be in that 
position.
    Mr. Secretary, I really do appreciate your freshness of 
approach, and your creative commitment to trying to rethink 
some of the architecture in order to get us all to the goal 
that we share; the highest and best quality of care for our 
veterans.

                    ENHANCED STRATEGIC PARTNERSHIPS

    In that regard, I want to bring up a specific example from 
home. Omaha has a difficulty with our hospital, as you are 
quite aware. Over the years, based upon a priority list, which 
is not necessarily the list of funding priorities, but is 
listed as a priority, which is to me, a peculiarity. 
Nonetheless, it has floated from 30 down now to 10, 19, all 
over the place.
    The broader point being to--maybe that is based on 
analytics, maybe that is based on more subjective criteria. I 
just don't know. The broader point, though, is enhanced 
strategic partnerships are the way forward. It is the model for 
the 21st century of veterans care.
    If, as you are--have been invited, and as I know you are 
working to commit to coming to Omaha when you do, you will be 
warmly received by creative community partners who are ready 
and capable to think about, again, an enhanced strategy that 
looks at a new model by which we can build out a potential new 
facility, if that is what is necessarily decided upon, as long 
as we have the flexibility for creative financing, or using 
existing structures that could be rehabilitated, or partnering 
with the excellent medical facilities through the University of 
Nebraska Medical Center, a great medical center, another five 
facilities that are already there.
    A quick anecdote, I have had the American Legion of 
Veterans of Foreign Wars in my office this week. And the 
committee has heard me talk about something, and you have as 
well, called ``Veteran Certified Facility.''
    And what I think this does is give us the ability to carry 
forward this important legacy of having the V.A. in charge of 
veterans health care, but maybe embedding that within other 
systems, as long as we have oversight authority over us, so 
that the quality of care is delivered. But it gets us out of 
this problem of putting money under the mattress for years, 
sometimes decades at a time, in order to build out a facility, 
because we simply have been doing it that way for the last 100 
years.
    The next 100 years, though, we can take that money that we 
do have, leverage it in strategic partnerships, and assure the 
veteran is getting the highest possible care, still while being 
under our authority. That is the new model and the way forward. 
I willingly commit our community to be your model template in 
this regard. I think--I don't think that is an overextension of 
the desires of the community that I represent.
    But I would like to work with you, whether it means new 
legislative authority, or exercising the current authorities 
you have, or creating and enhancing those strategic 
partnerships, and labeling something like a veterans certified 
facility. I would like you to respond to that, please.
    Mr. McDonald. Well, we agree with your comments. In fact, 
of the five objectives of MyVA, I think maybe perhaps one of 
the biggest ideas, other than being veteran-centric, is 
strategic partnerships. We are working very hard to establish 
strategic partnerships.
    And when I say that, I include the community. And I would 
just point to the example of we have a problem with 
homelessness. We are trying to drive down homelessness to zero, 
virtual homelessness of veterans to zero by the end of this 
calendar year. Yet, we have had a lawsuit going on in Los 
Angeles for 4 years that stopped us from doing what we needed 
to do to use 380 acres that we had there for homeless veterans.
    I got involved through a friend in Omaha. I found out who 
the law--who was behind the lawsuit.
    We brought the community together, including the mayor and 
everyone else, and members of Congress. And we have come up 
with a solution and a memorandum of understanding, and a plan 
forward to eliminate homelessness. So, I want to do the same 
thing in Omaha.
    Mr. Fortenberry. Perfect, Mr. Secretary, we need to get out 
of this trap of this priority list, which has, again, a model 
submitted a long time ago, but is not enhancing the opportunity 
to leverage the strategic partners and actually give the 
service that veterans need and in a quicker fashion.
    We have got to eliminate this construct, because we are 
just carrying forward--as Sam Farr was saying earlier--we carry 
forward in time legacy systems--in Appropriations, somebody 
gets trapped into whether or not we are going to plus up the 
same system or cut it back, rather than creating new 
architecture that actually makes sense in terms of service 
delivery.
    Does that mean my time is up? I didn't realize I talked 
that long.
    Thank you, Mr. Chairman.
    Mr. Dent. Thank you, and you did.
    At this time I would like to recognize the gentleman from 
Ohio, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. You had just answered 
some of the questions I had and while I was listening to this 
discourse of other questions that were asked, I would like to 
follow up on the distinguished gentleman from Florida, Mr. 
Rooney's question about bringing your extensive business 
experience to the Department of Veterans Affairs.
    What can Congress do to help you?
    Mr. McDonald. I think the biggest thing Congress could do 
is provide me the flexibility a business leader has to get the 
job done. Let's agree on what the task is. And then let's have 
the flexibility to get it done.
    Budget line items, where money can't be moved in a free 
market economy. You know, arguably, the V.A. is the largest 
business in government. We are the second largest department in 
government. We are the largest health care system in 
government. At one time--and this goes back to the 
congressman's recent comment--many of the things that we do are 
archaic versus today. Today, veterans have choice. They never 
had choice before. Yet, our laws and our budgetary processes 
are all about an inflexible system, an inside system.
    So, no criticism here. I just think we need to move forward 
and move toward the end game, which is going to be strategic 
partnerships. It is going to be a combination inside V.A. care 
and outside care. But we have to have the budget to do that. We 
have to have the flexibility to do that. And all of us focus on 
the task of providing the care to veterans.
    Mr. Joyce. I appreciate that and following up on his 
questions, too, it would seem to me from my visits that we have 
legacy systems that are putting band-aids on a system from the 
1970s.
    Would it make more sense to start a system that is 2017 and 
start working towards that one and eventually discard the 
legacy system? Wouldn't there be some cost benefit to that?
    Mr. McDonald. One--that is a great point. One of the things 
that we are doing--and this is particularly through the health 
system--as you have heard from Alison's comments about the 
benefits, she and her team have done a great job bringing this, 
modernizing this, digitizing this, and getting this going.
    Admittedly, we have more work to do yet, but we are on the 
way.

                        BLUEPRINT FOR EXCELLENCE

    In the health care system, we have got some more 
fundamental work to do. Under Alison, under Carolyn's 
leadership, we put together something called the Blueprint for 
Excellence, which is a 10-strategy plan of returning the health 
care system to preeminence in the country. That plan talks 
about strategic partnerships. It talks about a hybrid system. 
That is the vision that we have.
    As we continue to work, we will get more and more concrete 
on what that vision looks like. And I think that your point is 
exactly right. Rather than trying to take an operating room 
which needs to be 50 percent bigger, and trying to do that, 
maybe we go to an operating room in a university that we have 
an affiliation with. We have got great affiliations with the 
best medical schools in the country.
    So, there is a lot that can be done. And we are going to be 
making that vision more and more concrete over time.
    Mr. Joyce. And I wish we would continue to discuss the ways 
we can help you get to where you need to go. Because it is 
important, and Madam Under Secretary, you brought up where you 
had a strong Irish voice--keep it up.

                            VETERANS COURTS

    I know the frustration as a D.A. of 25 years, then you get 
to Washington, D.C. and it operates completely different and 
you wonder where you are sometimes. But there are ways to 
streamline the process, and it seems, we're in trouble because 
of the antiquated system and that is just not acceptable. And 
the other thing--you had answered it in the last question too--
as D.A.s, and I know with friends who are doing the same thing, 
I tell you it breaks your heart when you have to exercise 
prosecutorial discretion because veterans do something so they 
can get put in a place where they receive three squares and a 
roof over their head.
    It is wrong and I know you have many programs to address 
that. But whatever we can do to make sure not one veteran is 
homeless, please be loud, be clear, and let us get that help to 
you.
    Mr. McDonald. You are absolutely right. Incarceration for a 
veteran is a ticket to homelessness. And so, veterans courts--
it was mentioned earlier in one of the members' testimony--
veterans courts are a great way to deal with this. We are big 
advocates of veterans courts, we support veterans courts.
    I spoke at the Harvard Business--Harvard Law School about 
veterans courts. And we want to do everything we can to put 
veterans courts in place in every state. Because if we keep 
veterans out of jail, we will keep them out of being homeless. 
It is a great point.
    Mr. Joyce. Thank you very much for your time here today.
    I yield back.
    Mr. Dent. Thank you for respecting the time on that.
    That ends round one of the questioning; we will move into 
round two.

                     V.A. AND DOD INTEROPERABILITY

    I want to try to conclude this hearing by lunchtime, by 
noon, again. So, Mr. Secretary, following up on Mr. Bishop's 
comments, and also Chairman Rogers about the interoperability 
to help work through the records.
    Obviously you haven't been here for the frustrating 
experience of watching DOD and V.A. develop a single integrated 
health record then spend years and hundreds of millions of 
dollars on it, only to throw in the towel and go down two 
separate tracks.
    DOD will soon award a contract for a new electronic health 
record. The V.A. is working to modernize its existing VistA 
health records. Both departments are sort of committed to 
making their records interoperable with the private riders that 
both active service members and veterans use.
    I also want you to know that members of the House 
Appropriations Committee--we are strongly in favor of the 
integrated health record. And we are determined that the two 
records be interoperable. Just want to--again, hear your 
assurances that this is going to happen.
    And, moreover, I want to talk a little bit about the money 
side of this. Congress provided $344 million for the V.A., 
electronic health record for fiscal year 2015. And despite all 
the increases elsewhere in the budget, you are requesting $111 
million less than for 2016.
    You indicate that less funding is required because the 
transition from moving from a single to two interoperable 
records took longer than anticipated leaving carryover 2015 
funds. And that less 2016 funding better aligns with program 
requirements and workload capacity. The Committee certainly 
does not want to provide you with funding that you cannot use, 
but what does that say about your progress in modernizing 
VistA?
    Will you still meet your deadline of reaching final 
operating capacity for VistA evolution by 2018?
    Mr. McDonald. We are totally committed to maintain and 
making modern and useful our electronic health record. This has 
become even more important than it was before, because, as 
Steph alluded to earlier, we now have private sector doctors 
using our record.
    I went to the American Medical Association Convention last 
summer in Dallas. And I talked a lot about how do I get every 
doctor in this country using our health record.
    Our record is open source, which means it is free. Our 
record is crowd-sourced innovation, which means if a doctor 
uses our record and has an idea to improve it, we want that 
idea.
    I think there is a real opportunity here to make our 
records the world class record it can be. And so it needs to go 
forward to the private sector doctor and then go backward in 
DOD. So the interoperability is actually essential in both 
directions.
    Mr. Warren. Sir, to your question about the reduction in 
the 2016 request:
    It did take us longer when we moved from how we were doing 
a single record to how we are going to go forward, recognizing 
the sharing of information with third-party providers. So 
instead of asking for dollars in 2016 that we could not spend, 
we felt it was more appropriate to basically work off of the 
funds we carried over in 2014; the resources we received in 
2015. And that is why there was a reduction in 2016.
    We are still on track to make the interoperability 
commitments. In fact, that sharing of information, and again, 
Janus is just one piece of it--on track to meet that. And you 
will see a robust request for 2017 and 2018, as we pick back up 
the effort, again, work through the transition of reduction in 
2016 because we could not spend those resources. And in 2017 
you will see a robust request coming in.
    Mr. Dent. Thank you.

                       SUICIDE AND MENTAL ILLNESS

    Mr. Secretary, the recent Academy Award given to the 
documentary profiling the V.A. crisis hotline brought a fresh 
public spotlight on the tragic problem of suicide and mental 
illness and behavioral health among veterans that the V.A. has 
been battling for many years. In response to the problem over 
the years, the V.A. has increased its number of mental health 
practitioners, incorporated mental health services into primary 
care to reduce stigma, conducted research on effective 
treatments for service-related mental health issues and 
supported numerous outreach and prevention campaigns.
    Can you tell us what additional steps the V.A. plans to 
take to battle suicide and serious mental illness within the 
veteran population? I know that you plan to hire more than 
2,100 mental health staff through the Choice Act funding by the 
end of 2016, as an example.
    Mr. McDonald. The Clay Hunt Act was also helpful, and we 
are very thankful to members of Congress for the Clay Hunt Act. 
Because, as Carolyn said earlier, being able to repay student 
loans is an incentive to get more mental health professionals. 
And that allowed for a $30,000 repayment of student loans. It 
also allowed for more residencies, as I recall. And residencies 
becomes an issue.
    Medical schools will tell you, they can produce more 
graduates. But without the residencies, it doesn't help. So, 
that is very helpful.
    To me, the biggest thing we have got to do is outreach. We 
have got to find the veterans who are, for whatever reason, 
resistant to seeking that care. And I am very hopeful that with 
the ``American Sniper,'' being such a successful movie and with 
our Academy Award that we won for our ``dial 1'' documentary, 
that this is going to create more visibility in the general 
public and help Americans realize that if they see someone--a 
veteran who may need help, to let somebody know about it.
    We have a toll-free number that can be called, and we want 
to increase our outreach, both from veterans and from the 
general public and from family members, so that we can get in 
touch with these individuals, because we know if we get them 
into our system, that we can effectively treat them.
    Dr. Clancy. So one other point I would just make, Mr. 
Chairman, we take every suicide very, very seriously and almost 
personally, and in fact, we do what we call a behavioral health 
autopsy. That is to say, each case gets a very in-depth review, 
and the team has put together a database.
    What they are doing now is trying to identify how we might 
use all of the data from our electronic health records and 
other sources to identify those at highest risk and target the 
outreach that the secretary just mentioned.
    We think that there are going to be some early signals that 
we can be able to do that. It is a very, very difficult 
challenge but one that we are not letting up on.

                               CHOICE ACT

    Mr. Dent. Very, very quickly--just quickly back to the 
Choice Act, Mr. Secretary, you are no doubt aware of the 
initial report on the Choice program the VFW organization 
released yesterday.
    The group surveyed their membership to judge how many 
qualified and were able to use Choice, although the VFW report 
acknowledges that the V.A. didn't have much time to get the 
program running, that the V.A. has been working hard to improve 
it. The results of that they reported were disappointing.
    VFW says that only 20 percent of veterans who live more 
than 40 miles from the nearest facility or who had to wait more 
than 30 days for an appointment were offered the Choice option.
    Almost all those surveyed who were not offered Choice said 
they were interested in obtaining non-V.A. care.
    Don't the VFW findings contradict your statements that not 
many veterans seem to be interested in using Choice to obtain 
non-V.A. care? My sense is many are very interested, just 
simply not eligible.
    Mr. McDonald. No, as I said, we would like to do more with 
the Choice program, and we want to make sure every eligible 
veteran is able to take advantage of it.
    I appreciate the VFW running that research. We sent out 
cards starting in November. The last cards went out in January. 
That research started in December, so--and was completed 
recently.
    So it is going to take time, but we are redoubling our 
efforts, as I said earlier, to make sure every veteran knows of 
their qualifications for the Choice program and every veteran 
can take advantage of it.
    We appreciate the VFW running the research.
    Mr. Dent. Thank you.
    At this time, I yield to Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    I want to turn to some parochial issues.

                     GAS TO ELECTRICITY CONVERSION

    I have heard that some V.A. hospitals are looking at 
converting their energy supply to gas from electricity and 
understand that the Atlanta V.A. is studying a possible 
conversion.
    Apparently, any type of conversion could cost a significant 
amount of money in capital cost. What is the thought process 
and analysis of this decision?
    Mr. McDonald. I am not aware of that specific situation, 
Ranking Member Bishop, but I know from my private sector 
experience, I have converted different plants from natural gas 
to electricity and back and forth, or use co-generation. So I 
am assuming that the study would have to show a rate of return 
on that investment if we are going to make the capital 
investment.
    I can assure you that, as the Secretary, I would not make 
that investment if there weren't an acceptable rate of return 
from the American people. But we will have to dig into that 
specific example.
    Thank you.
    Mr. Bishop. Thank you.

             MARTIN ARMY COMMUNITY HOSPITAL AND V.A. CLINIC

    During our last conversation, you mentioned that there has 
been 18,000 square feet of space at Martin Army Community 
Hospital that would be allocated for a V.A. clinic. There was 
to be an initial allocation, as I understand it, of 10,000 
square feet followed by 8,000 square feet a month later.
    As you know, this is something that I have been asking for 
years, a co-location with DOD and V.A. clinics. Can you provide 
me an update as to the status of the transition?
    Mr. McDonald. That is as much as I know is what you just 
said. We are in the process of making transition.
    And again, I think this is a good example of another 
strategic partnership, and that is a partnership with DOD. And 
we appreciate your comments and the fact that you have been 
looking for this.
    Caroline, I don't know if you have an update beyond that.
    Dr. Clancy. I understand that it is all on track, and there 
will be sort of a grand opening in May, but you better believe 
we will be letting you know about that.
    Mr. Bishop. Thank you. Thank you. Thank you.

             V.A. CLINIC SELECTION, NORTH COLUMBUS, GEORGIA

    Finally, we talked at length about the selection of a V.A. 
clinic in North Columbus, Georgia and the questions of the 
process utilizing the selection of the site.
    Have you been able to find out anything in regard to the 
property selection there, and if it is truly the best location 
that will service the veterans in the Columbus, Georgia,--
Alabama and surrounding areas?
    Mr. McDonald. We did look into that. After we talked, we 
did look into that process. And frankly, I think that we could 
have done a better job involving your staff and you in that 
process of selecting that location.
    The location is selected. We do think it is a good 
location, and if we were to change the location, my 
understanding is it would significantly delay us.
    And as a result, we think it is best to move forward, but 
we do think that the process could have been improved of 
including your staff and you in the process of that.
    Mr. Bishop. It is my understanding that there is no public 
transportation that will go to that site and that there are 
very few veterans that actually live in that area, that the 
central city location would provide much greater access with 
public transportation and that there are facilities there that 
are already constructed as a part of the Columbus regional 
medical complex.
    So I am trying to understand how they came to the 
conclusion that that was the best location.
    Dr. Clancy. I believe that transportation is going to be 
arranged for those veterans who would need transportation 
from--particularly if they are at that other complex and need 
to get out to our facility.
    I believe that there was a problem with putting this 
facility downtown, but I will follow up with you on that.
    Mr. Bishop. Yes. Yes, I don't know what the problem was, 
other than that the specifications when they put the request 
for a proposal out excluded that particular geography where 
there was a tremendous medical complex in existence that had 
excess space.
    It was already wired for all kinds of emergency 
transportation, for specialty services and the like.
    Mr. Dent. I recognize Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.

                    VACANT FACILITIES AND OBSTACLES

    I just have one question I didn't get to last time. Mr. 
Secretary, you made a very reasonable argument and request 
regarding vacant facilities and one of the ways we could be 
helpful would be to remove the obstacles that stand in your way 
of closing facilities.
    What are those obstacles on the congressional side? Are 
they merely political? Are they statutory? Are they tied to 
funding?
    Mr. McDonald. I will have to get back to you on the 
details. My understanding is they are generally political, 
and--
    Mr. Jolly. I don't know who would stand by that one 
facility that you sent a picture of. I think you should able to 
close that one, right?
    Mr. McDonald. Yes. That--that garage?
    We obviously picked that picture on purpose.
    Helen, do you have any--what do we need help on here? Is it 
statutory or--thank you for asking.
    Ms. Tierney. Sir, it is a combination of different things.
    We do have facilities such as that one that is designated 
as a historical facility, which, once that happens, we are not 
able to move forward.
    And then it is a lot of political concern when we look to 
close a facility, so we need something like a BRAC process that 
would be fair, that a board would evaluate our facilities, and 
Congress would agree with those closures based on their 
ranking.
    Mr. Jolly. But do you have the authority to close vacant 
facilities? Let's stick with vacant facilities, not reducing 
the footprint of maybe existing facilities.
    And I ask just because if it is political, then the 
category of vacant facilities, I think would be the low-hanging 
fruit with the least amount of political opposition.
    Do you have the legal authority to close vacant facilities?
    Ms. Tierney. So each case tends to be a little bit 
different. Sometimes that facility is on a complex, and we 
don't have enough construction money to tear it down.
    An option when we start to do that process, one of the 
historical organizations gets involved--so yes, we would 
probably need an agreement that everybody was going to agree to 
close certain facilities.
    Mr. Jolly. Thank you.
    Mr. Dent. Can we submit for the record what your 
authorities are? That would be very helpful.

    [Clerk's note: The requested material was not provided by 
publication deadline.]

    I recognize Mr. Fortenberry.
    Mr. Fortenberry. This was related to the line of 
questioning I wanted to undertake.
    But first of all, let me make a quick recommendation, if 
there is some viable mechanism whereby you can creatively 
dispose of excess inventory and capacity working with 
communities, do not call it BRAC. [Laughter.]
    Don't do that, because this is a positive thing. We are 
trying to make you more efficient and effective, not close 
stuff in communities, and that means transitioning this vacant 
property, underutilized property.
    By the way, the V.A. clinic in Lincoln, Nebraska, where I 
live, has a similar dilemma, a very old, stately facility that 
needs to be preserved--enhanced and preserved, and there is 
development agreements that have tried to be worked, and it is 
completely stuck.
    And meanwhile, what is happening? The V.A. is carrying 
excess capacity, taking money away from your primary mission, 
the community is not being as well served, because there are 
other development opportunities there, and we are losing the 
opportunity to rehabilitate and preserve historic structures.
    So, I will think of--I will come up with an acronym if you 
want, but don't say BRAC.
    Ms. Tierney. Sorry. We have a legislative request that we 
have submitted to give us enhanced use lease authority. Right 
now, our authority was limited to only supportive housing for 
homeless veterans. We would like to extend that back to the 
authority we used to have so we could bring in a broader range 
of people to use those beautiful historic facilities.
    Mr. Fortenberry. Well, perhaps, Mr. Secretary, this is the 
heart of the problem that we have all been talking around with 
our lofty ideals and strategic partnerships. The mechanism for 
this--one of them, anyway, to create a financing mechanism--
could be this enhanced leasing authority, where private bill 
would lease back, or however you want to structure it.
    You said it--``We used to have the authority.'' You no 
longer do. What happened?
    Mr. McDonald. I think part of it was around the issues in 
Los Angeles that I mentioned earlier. The Los Angeles campus 
had a rental car facility, a laundry facility, and a whole 
bunch of other things. And as a result of that, the enhanced 
use lease authority got restricted. I think we are beyond that 
now. We have solved the problem in Los Angeles. This would be 
helpful.
    The other thing that would be helpful--and we have done a 
lot of study on this--is, with the strategic partnerships, we 
also have the ability to create mechanisms where we could 
receive funds from private sector to help veterans. And we have 
looked at that authority, as well.
    Mr. Fortenberry. Well, I think what would be helpful--and 
you alluded to this earlier--is if we can quantify what you 
need in terms--across multiple platforms, what we have talked 
about, in terms of enhanced authority that is going to give us 
creative opportunity to have the private sector either 
contribute, or be involved in the financing. So, we could just 
get going here. There is no reason for all of this holdup. It 
is just that we are carrying legacy infrastructure of previous 
ideas as to how to do things. Not a condemnation of the past. 
We had to do it that way. But we don't have to do it that way 
going forward.
    So, I think as an outcome here--tangible outcome--can you 
get back to us with the list after the evaluation is done, what 
specific legislative authorities you need? Or if it is a matter 
of just cross-agency communication, as we talked about with the 
OMB----
    Mr. McDonald. Right.
    Mr. Fortenberry [continuing]. Who has some stress regarding 
enhanced leases or private bill with private build leased-
backed arrangements--that would be very helpful.
    Mr. McDonald. We will do that.
    Mr. Fortenberry. If you could do that quickly, that would 
be----
    Mr. McDonald. We will do that. We will do it very soon.
    Mr. Fortenberry. All right. Thank you, Mr. Secretary.
    Mr. Dent. Thank you. That concludes the second round.
    But before we depart, I want to ask one quick question and 
then will submit the balance of my questions for the record.
    Mr. Secretary, your predecessor set goals of ending the 
disabilities claims backlog of defining backlog as taking 
longer than 125 days per claim. And achieving a 98 percent 
accuracy in completing claims by 2015.
    Your budget document states that you will meet the 
timeliness standard--outside observers are a little more 
skeptical. It appears that trend in backlog reduction has 
declined in the last 8 months.
    Your budget documents are silent about whether you will be 
able to meet the 98 percent accuracy goal by the end of the 
year. Why has that goal proved more elusive to you and what 
steps, like training, are necessary for you to achieve your 
quality goal?
    Mr. McDonald. On that particular goal, we have done a deep 
dive on the statistics of that goal. And statistically, it is 
virtually impossible to achieve it. Statistically, if you have 
two probabilities--let's say one is .5 percent, the other is .5 
percent--together, they are .25 percent. If you add another 
one, you know--and the probabability keeps going down the more 
elements you add.
    We did a deep dive on this, and there are so many elements 
to achieving a perfect claim resolution that it would be 
impossible to get to 98 percent.
    Allison, any detail you want to add?
    Ms. Hickey. The only thing else I would add is that I have 
met now repeatedly with commercial industry experts and chief 
claims officers from across the nation who do similar work. And 
when I describe to them the level of quality we have already 
attained, and then I say to them, ``How would you get 
further?'', they say to me, the return on investment would be 
so huge to get further that they actually believe--and when I 
asked them about their numbers, I am actually ahead of most of 
them in terms of the quality that they do. They didn't say just 
have a process on the back side for which--a working appeals 
process with good law around it--have a process on the back 
side for which you address those points of disagreement.
    I think it is important to also note there is no 
correlation today between quality and appeal. We have done that 
study and that analysis. In fact, some of our best stations had 
the highest number of appeals.
    So, what I would tell you is that we are really optimizing 
the system right now at that 96 percent medical issue quality. 
Which, by the way, is a 5.5 million issues we have done this 
year, and will go up again next year. So, we are actually doing 
pretty well against that at the individual medical issue level.
    We have--and I thank you for the resources--significantly 
improved our training programs, our challenge programs. And we 
even have sort of remediation now--programs which you assisted 
us with. We also have consistency studies we are doing every 
day. We have quality review team people in the regional office 
who are providing just in time assessment of errors.
    We have almost seven or eight layers of quality assurance 
now that I would actually say probably supersedes what even 
industry does in this area.
    Mr. Dent. Thank you for that.
    This concludes our hearing. I want to thank all of you 
today--the secretary and staff for appearing here.
    And this hearing is adjourned.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    

                                          Thursday, March 19, 2015.

   OVERSIGHT HEARING--DEPARTMENT OF VETERANS AFFAIRS, OFFICE OF THE 
                           INSPECTOR GENERAL

                               WITNESSES

MR. RICHARD J. GRIFFIN, DEPUTY INSPECTOR GENERAL, DEPARTMENT OF 
    VETERANS AFFAIRS
DR. JOHN D. DAIGH, JR., CPA, ASSISTANT INSPECTOR GENERAL FOR HEALTHCARE 
    INSPECTION, DEPARTMENT OF VETERANS AFFAIRS
    Mr. Dent [presiding]. We will bring this meeting to order. 
Good morning.
    We would like to welcome Mr. Richard Griffin, the deputy 
inspector general for the Veterans Administration, to discuss 
his office's oversight efforts at the Veterans Administration.
    This is probably one of the most active periods in recent 
memory for your office, Mr. Griffin, with your audits of 
whistleblower allegations and the wait list scandal reports 
that you are required to make to Congress by the Choice Act. 
You have also had to respond to recent charges that your office 
has fallen a little bit short on transparency by failing to 
release some investigative reports.
    Members of the subcommittee will no doubt have many 
questions about the many areas of your oversight, and we 
understand that you have a previous engagement that requires 
you to leave at 11:30 this morning, and we will do our best to 
honor that. But with all the issues, from the wait list scandal 
to the construction challenges issue at Denver and so many 
other issues, I look forward to just getting right into this 
testimony.
    At this time I would like to ask our ranking member, Mr. 
Bishop, if he has any opening remarks that he would like to 
make?

                Ranking Member Bishop Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman, for 
yielding.
    I believe that the inspector general plays a vital role in 
ensuring the programs that are implemented actually work and 
that the funding is spent wisely. The I.G. last year, I think, 
was tasked with the difficult work of investigating the scandal 
in Phoenix, about which we were all appalled.
    In response to this investigation, which uncovered numerous 
issues, Congress moved forward on historic legislation, 
including the Veterans Choice Act, that would improve access to 
health care for veterans across the nation, which was signed 
into law in August. While this is an essential first step in 
addressing the systemic issues that are facing the Department 
of Veterans Affairs, there is still a lot of work to be done.
    And as we move forward, it is critical that the inspector 
general have the necessary resources to conduct aggressive 
oversight to ensure that veterans are able to receive the 
health care that they need when they need it. It is vital that 
we change the culture that has been so infested within the V.A. 
and to make sure that it doesn't resurface.
    No matter what steps the V.A. takes to address the 
challenges that it faces, it will not be able to move forward 
if we don't have proper oversight. So I commend you for the 
work that has been done over the last several months, but there 
is a lot yet to be done to repair the trust that has really 
been broken with our veterans and with the American people for 
the veterans--the V.A. system.
    So I look forward, Mr. Chairman and members of the 
subcommittee, to working with the department to eliminate the 
issues that are raised by the I.G.
    And I thank you, and I will yield back.
    Mr. Dent. Thank you.
    So, Mr. Griffin, your full statement will be entered into 
the record. Please introduce Mr. Daigh, who is with you at the 
witness table, and please summarize your testimony for us. And 
I know we are going to be interrupted by votes at some point, 
so we are going to try to move along as quickly as we can.
    Mr. Griffin. Thank you.
    Mr. Chairman, Ranking Member Bishop, and Members of the 
Subcommittee, thank you for the opportunity to discuss the work 
of the V.A. Office of Inspector General.
    In fiscal year 2014, our office issued 310 reports, we 
closed 880 investigations, we made 539 arrests, and we 
identified $2.3 billion in monetary benefits for a return on 
investment of $22 for every dollar in I.G. funding. In the 
first 5 months of fiscal year 2015 alone, the I.G. has 
recovered in fines, penalties, restitution, and civil 
judgments, actual money returned to the U.S. government 
equivalent to 91 percent of our enacted appropriations.
    Recoveries since fiscal year 2011 are even more remarkable, 
with $3.1 billion in recoveries, which represents actual cash 
recoveries of $5.50 for every dollar spent on the I.G.'s 
operations.
    In the past 6 years we have issued more than 1,700 reports, 
made more than 3,000 arrests, and provided testimony at 69 
congressional hearings. We conducted 400 briefings for Members 
of Congress and staff and responded to more than 1,300 written 
requests from various members of the House and the Senate.
    This level of productivity and information-sharing with 
Congress is among the very highest in the I.G. community. 
During the past 6 years, our work has been recognized by the 
Council of Inspector General for Integrity and Efficiency with 
25 awards for excellence.
    The national attention sparked by reporting on waiting 
times and patient deaths at the Phoenix Health Care System has 
resulted in a dramatic increase in the number of contacts to 
the OIG hotline.
    In fiscal year 2014 the OIG hotline received nearly 40,000 
contacts, a 45 percent increase over fiscal year 2013. We saw a 
similar increase in the number of inquiries from the Members of 
Congress, with over 200, reflecting a 38 percent increase in 
congressional requests. We expect that these upward trends will 
continue.
    Recent attention to opioid prescription practices at the 
Tomah VAMC has generated interest in the OIG's practice of 
administrative closures. Let me be clear that our work at Tomah 
was painstaking and comprehensive.
    OIG physicians reviewed the clinical practice of providers 
to include quality assurance data and patient medical charts. 
We contacted the V.A. Police, the Drug Enforcement Agency, the 
Tomah and Milwaukee Municipal Police, to determine if there was 
evidence of narcotic abuse at the Tomah VAMC. OIG investigators 
were involved in an attempt to find appropriate or illegal 
behavior on the part of providers or patients.
    Current and former Tomah pharmacists were interviewed. OIG 
staff reviewed the e-mails and other files from 17 employees at 
the Tomah VAMC.
    At the end of a 2.5-year review we concluded that narcotic-
prescribing practices of some Tomah staff were at the outer 
boundary of acceptable narcotic prescribing, and we were unable 
to find evidence that illegal activity was occurring. While the 
decision was made to close the review without a public report, 
we did, in fact, brief the Tomah and the network director who 
oversees Tomah, along with VHA central office personnel.
    In January of this year I directed a review of 
administrative closures for fiscal year 2014 to determine 
whether any adjustments were to be made to our internal 
policies. We found that 42 percent of the administrative 
closures were not substantiated, 54 percent were closed because 
when we arrived, the facility had already taken sufficient 
action that resolved the issues, and 4 percent involved tort 
claims.
    I also directed a review of our decision-making practices 
on closing reviews administratively and instituted a new policy 
requiring coordination of administrative closures within the 
immediate Office of the Inspector General, the Office of the 
Counselor to the Inspector General, and our Release of 
Information Office. This process will ensure consistency in 
decision-making regarding when and how public release of 
related documents is handled.
    This week we began publishing administrative closure 
reports on the OIG Web site. Additional reports will be 
published pursuant to the Freedom of Information Act as we 
complete the process of reviewing and redacting sensitive 
information.
    For fiscal year 2015 the OIG is funded at $126.4 million. 
The President's budget proposed $126.7 million for fiscal year 
2016, a three-tenths of 1 percent increase, which will require 
a reduction of 10 full-time employees.
    Without additional resources, we cannot meet the demands of 
increased congressional and other hotline contacts. It will be 
practically impossible to maintain our schedule for cyclical 
inspections of V.A. medical centers, outpatient clinics, VBA 
regional offices, and other national reviews.
    Our investigative staff is also stretched to the breaking 
point by the rise in threats and assaults, fiduciary fraud, 
drug diversion, identity theft, and service-disabled veteran-
owned small business fraud. We believe an increase of $15 
million over the fiscal year 2015 enacted level will enable us 
to surpass our performance in terms of productivity, quality, 
and timeliness, and help meet the unprecedented increase in our 
workload.
    Mr. Chairman, we appreciate the committee's continued 
interest and support, which has included the addition of $5 
million above the President's request during the last 2 fiscal 
years.
    This concludes our statement, and we would be happy to 
answer any questions you or any other Member may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          WAITING LIST SCANDAL

    Mr. Dent. Thank you, Mr. Griffin.
    And I will get to the Tomah issue in a moment, but I just 
wanted to first start with the waiting list scandal.
    Your office was obviously thrust into the epicenter of the 
wait list scandal last year. Your testimony indicates that you 
have undertaken 98 audits responding to allegations of 
scheduling manipulation and that so far you have referred 44 
audits to the department's Office of Accountability Review for 
administrative action. You are still working at the other 54 
sites.
    Should we conclude from the 44 completed audits that 
scheduling manipulation was endemic to all the hospitals you 
visited? And are the violations you identified matters of 
breaking the law or administrative malfeasance, and has the 
Department of Justice been willing to take any of these cases 
you have identified?
    Mr. Griffin. I can't tell you as I sit here if 100 percent 
of the facilities were manipulating wait times, but I can tell 
you it was certainly widespread throughout the system. We have 
presented these cases to the U.S. Attorney's Office; 33 of the 
cases that were presented have been declined for prosecution, 
with the suggestion that they be referred to the department for 
administrative action, which is, of course, what we would do 
anyway.
    We have eight that are still pending with DOJ and, of 
course, you know, each individual U.S. Attorney's Office has 
their own caseload and their own decision matrix as to what 
they accept for prosecution and what they don't, but certainly 
any time that we had evidence of criminality we presented these 
cases.
    Mr. Dent. There are conflicting media reports in the wake 
of President Obama's visit to the Phoenix hospital. One of the 
whistleblowers said that progress was being made and that 
terrific strides had been made in on-time appointments; another 
one of the whistleblowers dismissed any notion of progress and 
said that the V.A. was still gaming the system of appointment 
delays.
    What conclusions have you made about the pace of the 
progress from your most recent audits?
    Mr. Griffin. We issued an interim report on Phoenix urology 
issues within the last 30 days. It is something that came to 
our attention when we were in Phoenix initially. We had to set 
it aside because we wanted to get the waiting times report out 
the door.
    We found some 750 veterans that were waiting for urology 
care for extended periods of time that appeared to be 
unaccounted for in the system.
    So there are issues. It took a long time for the system, 
system-wide, to get into the state that we found it in, and I 
think it is going to take a long time to get it all 
straightened out.

                        OMI AND OIG DIFFERENCES

    Mr. Dent. And I would like to also just follow up on the 
last comment on Phoenix. After the Phoenix wait list scandal 
the V.A. took steps to reorganize and strengthen the Veterans 
Health Administration's Office of Medical Inspector, OMI, 
including creating an audit capacity for that office.
    What does the OMI do that is different from the OIG? Do the 
two groups often have the same cases?
    Mr. Griffin. We have a statutory requirement to oversee the 
work of the OMI, so we would never do duplicate work because we 
would tell them--if they were going to initiate something we 
already were working. They are in regular contact with Dr. 
Daigh's office. It is not unlike our relationship with GAO. If 
we are doing an audit on a certain subject it would make no 
sense, so----
    Mr. Dent. So it is not redundant?
    Mr. Griffin. Previously, as a medical inspector, they were 
the under secretary's early warning mechanism. If there was 
something that he wanted them to go look at before it became a 
national crisis, he could dispatch his medical inspectors prior 
to it coming to anybody's attention, just based on one of his 
directors hopefully saying, ``I think we need someone to come 
out and take a look at this.'' The audit aspect is a new twist 
for them.

                              TOMAH ISSUE

    Mr. Dent. I would like to quickly move to the Tomah issue, 
if we could. Your office has obviously been investigating the 
Tomah, Wisconsin V.A. hospital case of over-prescription of 
opioid drugs, which gained a lot of national attention. And 
your office has faced some criticism for concluding that 
doctors' prescription policies were within the scope of 
practice.
    Last week the department released its preliminary clinical 
findings on Tomah and reported that the V.A. team found unsafe 
clinical practices at Tomah in such areas as pain management 
and psychiatric care. The department also noted that the Tomah 
hospital had double the national average in the simultaneous 
use of benzodiazepines and opioids, a practice which is 
discouraged by official V.A. policy. These findings seem to 
indicate a significant problem.
    I guess the question is, why did the I.G. conclude that 
prescribing behavior was in the scope of practice, or you said 
they perhaps pushed an outer boundary?
    And then finally your office also had received some 
negative publicity recently. It was a USA Today story on March 
the 8th related to the Tomah case because you administratively 
closed the case without publicly releasing the report and 
response.
    You talked about it in your testimony, but on Tuesday you 
established a new policy that administrative closures would be 
decided centrally. Out of the 140 reports that have not been 
released, you have released five with sensitive information 
redacted and your staff is reviewing the other 135.

                NEW CENTRAL POLICY ON RELEASING REPORTS

    Can you tell us what the new central policy would be on 
releasing those reports? Are reports, even those with 
confidential information and unsubstantiated allegations, being 
released with appropriate redaction? Is there no standard 
policy government-wide for I.G.s to follow about the 
circumstances in which I.G.s must release the reports from 
their investigations and their audits?
    I kind of gave you three issues there: Tomah, the most 
recent issue of the disclosure of the reports, and a standard 
for I.G.s generally.
    Mr. Griffin. Regarding the recent publication by Dr. 
Clancy, our work there covered a point in time from 2011 to 
2013, and during that time we looked at the specific patients 
and the specific medical records that were in play at that 
time. We are back in Tomah now looking at some of the new 
allegations involving new patients, and we have another 
investigation ongoing there. For it to be misunderstood that a 
current review somehow has application to the work that Dr. 
Daigh's team did isn't exactly the way it should be described.
    Your second question on administrative closures.
    I can tell you that other I.G.s do administrative closures 
and that based on the numbers that I mentioned to you--we have 
40,000 hotline requests, most of them with multiple issues they 
want us to look at. If we start looking at something and we are 
10 percent into the review and we realize this is a dry well, 
it would make no sense for us to use our limited resources to 
pursue something when we have been convinced early on that it 
is either unsubstantiated or because perhaps the whistleblower 
or the person who raised the issue raised it through the chain 
of command--sometimes that happens, too--and it was taken to 
heart locally and fixes were put in place prior to our team 
even getting there.
    For us to continue to do work and issue an extensive report 
with the additional requirements on our personnel and cost and 
efficiency would be a poor utilization of our resources. In the 
past we administratively closed such reviews.
    Frankly, we are doing these now because of some 
misunderstanding as to whether we were hiding something. 
Anybody that reads these as they come out--and I think we have 
got 13 out this week--will see that if you were in our position 
you would make the same decision.
    Mr. Dent. Thank you, and I would like to yield this time to 
our distinguished ranking member, Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    Ms. Lee has got some exigencies, and so I am going to, if 
the chair would allow me to yield to Ms. Lee and let her go 
ahead of me out of turn?
    Ms. Lee. Thank you very much. I want to thank the gentleman 
for yielding.

                      UNPROCESSED INFORMAL CLAIMS

    We have the Budget Committee coming up, and I really 
appreciate being able to ask you these questions.
    So thank you, Mr. Bishop, very much.
    Good morning. Good to see you.
    And first, let me just thank you for responding to report 
language that this committee placed--I think it was the year 
before last with regard to the Oakland Regional Office. We 
indicated that there had been 13,000--over 13,000 unprocessed 
informal claims, and Under Secretary Hickey, in her testimony, 
indicated that these were actually duplicate claims, but that 
that still was unacceptable.
    There was some recommendations based on the report that you 
gave us that we presented back to you that I believe it was Ms. 
Boor--Julianna Boor--worked with us on. And let me just--there 
are three recommendations, and I wanted to get a sense of what 
you think needs to happen next.
    We recommended that the Oakland V.A. Regional Office 
director complete and take appropriate action on the remaining, 
I think it was 537 informal claims; secondly, that the Oakland 
regional director implement a plan to provide training to staff 
on proper procedures for a process in informal claims and 
assess the effectiveness of the training; thirdly, that the 
Oakland V.A. Regional Office director implement a plan to 
ensure oversight of those staff assigned to process the 
informal claims.
    I think you know that Oakland has been one of the worst, 
and you have made a lot of progress, so I want to thank you for 
that. But also, getting to 2015 goal of no disability claim 
being more than 125 days old, I can't for the life of me figure 
out how that is going to happen, given what is taking place and 
what has taken place in processing in Oakland.
    So are you going to continue to investigate, continue to 
monitor? How do we make sure that we reach the goal of 2015?
    Mr. Griffin. I think that was a stretch goal when it was 
articulated. I think there has been extreme emphasis placed on 
processing claims, and a lot of other collateral duties that 
VBA has have fallen by the wayside.
    And we were in a meeting about this subject and the answer 
was, ``We don't have enough staff.''
    And I said, ``Well, we are making millions of dollars in 
improper payments that could be used to hire staff and get 
adequately staffed so things can be done right.'' I came away 
from the meeting believing that there was going to be a request 
for that.
    They are up against it, there is no question. The increase 
in demand since 9/11 for the post-9/11 veterans has them and 
VHA drowning in demand. And as you know, they have been under a 
fair amount of pressure to try and get this backlog cleaned up.
    I would applaud their effort, but I am afraid that in part 
what has happened is some of the backlog is getting moved 
around and not getting resolved. Some of it is going to----
    Ms. Lee. That is what we are seeing there.
    Mr. Griffin [continuing]. It is going to wind up at the 
Board of Veterans Appeals or it is going to be temporarily 
taken off the table, which was part of another initiative they 
have on the 2-year-old claims, but then it has to come back to 
be finalized later on.
    So there are a lot of issues. You are right, Oakland was 
not one of their high achievers.
    Ms. Lee. One of the lowest----
    Mr. Griffin. Exactly. But thanks to some funding we got 
through this committee a few years ago, we created that 
inspection program. And we get to every regional office once 
every 3 years so we can look at the more difficult claims and 
see if they are doing them correctly or not, or are they making 
improper payments, and so on.
    So we know they had problems with Oakland. With the 13,000 
you alluded to, as you know, they didn't even have sufficient 
records as to be able to go back after the fact and confirm 
that they fixed those 13,000, so more work needs to be done, no 
question.
    Ms. Lee. Okay. So is there a plan to go back to determine 
if those 13,000 were fixed? And then do you think that the goal 
of the claims being no more than 125 days old by 2015 can be 
attained or not?
    Mr. Griffin. I don't believe that will happen, but we all 
hope it could happen. But, like I said, I think it is a stretch 
goal.
    Ms. Lee. Okay.
    Well, Mr. Chairman, I would hope we could figure out a way 
to help make sure that goal is achievable since that is the 
goal, because these veterans deserve better that what is taking 
place now.
    So thank you very much.
    Mr. Griffin. Thank you.
    Mr. Dent. Thank you, Ms. Lee, and thank you for your 
service on the Budget Committee. I know you are a little busy 
today. Hope you got a little sleep.
    At this time I would like to recognize Mr. Jolly for 5 
minutes?
    Mr. Jolly. Thank you, Mr. Chairman.
    And, Mr. Griffin, Dr. Daigh, thank you for being here.
    We are coming off one of the worst scandals of the last few 
years within the V.A., where your office uncovered widespread 
abuse, manipulation of wait lists. You are the independent 
inspector.
    This is the Appropriations Committee, though, not the 
Authorizing Committee. The President's budget proposes overall 
an increase of around 7 percent for the department, but for 
your department and the inspector general's department only 0.3 
percent.
    Your testimony says that you will have to reduce your 
personnel by 10 full-time employees under the President's 
proposed budget. Is that correct?
    Mr. Griffin. Yes, that is correct.
    Mr. Jolly. Last year you issued 310 reports, 888--or 880 
investigations, 70-something arrests, recovered $2.3 billion. 
You were responsible for, frankly, uncovering some of the 
greatest concerns of the American people. And the President's 
budget proposal requires you to cut staff if enacted at this 
level. Is that correct?
    Mr. Griffin. That is correct.
    Mr. Jolly. In your oral testimony you reference if it was 
up to you you would be requesting an additional $15 million?
    Mr. Griffin. That is correct.
    Mr. Jolly. And what would that enable you to do? If at $126 
million you are laying off 10 people, then at $141 what does 
that do for your operations?
    Mr. Griffin. Thank you.
    We have got a 45 percent increase in hotlines. We have got 
an intake unit that processes those. But when there are serious 
violations that need to be either investigated or need a 
medical review by Dr. Daigh's staff or need an audit, the 
intake unit farms those out to the people that hit the street 
and do the actual work.
    So what we would do is we would hire 75 additional 
personnel. Some of them would be in the intake unit, but some 
of them would work for Dr. Daigh, some would work in our 
criminal investigative unit, and some in the audit staff.
    It would also allow us to not have to lose the 10 that you 
have already described.
    Mr. Jolly. And I would point this out to the committee. You 
know, I asked the secretary when he appeared before us what the 
President's budget proposal included for OIG, and I am not sure 
we got a clear answer that day, and I am not sure if it was 
obfuscation or perhaps he just didn't know.

                               CHOICE ACT

    Is there an issue related to anything in the Choice Act? In 
past testimony, as I have seen over the past several weeks from 
the department, both on the Hill and publicly, there has been 
reference to the fact that perhaps your office did receive 
additional money sometime towards the end of last year that 
justifies this increase?
    Mr. Jolly. Justifies this lack of increase.
    Mr. Griffin. Thanks to this committee, we have received $5 
million above the President's budget the last 2 years. The way 
the omnibus worked out last year, it was like ships passing in 
the night as far as the pass-back from OMB and the 
appropriation for 2015 occurring.
    I believe that somebody saw that $5 million and concluded 
that, well, they already got their $5 million in 2015. But we 
used that $5 million to add staff to try and put our finger in 
the dike to stay afloat here. And based on the growth in 
demands, 45 percent growth, we already had to stop doing some 
of the cyclical reviews that we think are very important so we 
are not just showing up at hospitals when somebody pulls the 
fire alarm. You need to have a routine inspection process.
    So there was a memo that came out from the Office of 
Management saying that there may be either a supplemental or--a 
reapportionment of some of the Choice Act money. Now, my 
reading of what the reaction has been to that idea suggests 
that that wasn't going to happen, but I felt compelled, if 
there was going to be a supplemental, based on us having to 
lose people, to make a serious and sincere request for 
additional staffing because we are going under.
    Mr. Jolly. So to be very clear, your position is that 
nothing that has occurred, from the omnibus to the Choice Act, 
any additional resources, there is nothing that has alleviated 
your need for additional money? This would be a real cut.
    Mr. Griffin. Absolutely.
    Mr. Jolly. If this President's budget is enacted at this 
level, this is a real cut of 10 employees to your office?
    Mr. Griffin. That is right. And we could use twice as much 
as that, but I don't want to be greedy. I am serious. There are 
other I.G.s that have 1,600 FTE and we have 650.
    Mr. Jolly. Thank you.
    Mr. Griffin. And we are the second-largest agency in the 
government.
    Mr. Jolly. Thank you very much.
    Mr. Chairman, thank you.
    Mr. Dent. Thank you.
    I would like to, at this time recognize the distinguished 
ranking member, Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman.

                             CLAIMS BACKLOG

    Let me go back to your budget document for a moment to try 
to follow up on an earlier statement that you made about the 
backlog. I think an OIG review found that the VBA's 2013 
special initiative to expeditiously complete disability claims 
pending more than 2 years was not effective, and the 
initiatives allow use of additional ratings to process claims 
while awaiting receipt of requested supporting evidence was 
less effective in quickly providing benefits to veterans than 
were the existing rating procedures.
    And you said although the complete provisional claims still 
required a subsequent final rating decision, they were omitted 
from the VBA's inventory of pending cases, understating VBA's 
total workload and its progress in eliminating the claims 
backlog. So basically, what I would like to get clarification 
on is whether or not when you take--when you eliminated the 
pending cases, did that increase the--did that distort the 
number of claims that were still unresolved and still pending?
    Mr. Griffin. Yes, it did. I mean, they took those 
provisional ratings off the table even when there might have 
been one or two of the several claims that had been filed that 
had not yet been completed, and they weren't included in the 
count.

                             BUDGET REQUEST

    Mr. Bishop. Which is really troubling to us, because, you 
know, we are really, really struggling to get a handle and to 
hold the agency accountable on the numbers. It just seems like 
the numbers are ambulatory, they just move all over the place.
    And we have to have some real metrics so that we can track 
and we can hold the agency accountable so we can exercise our 
oversight duties.
    Let me ask you something about your budget request now. You 
mentioned that the return on investment was five-to-one, I 
think, in your testimony, in terms of recovery.
    The budget document seemed to suggest it was three-to-one, 
so that was--that kind of jumped out at me. But I find it 
interesting that the funding level is flat, because you 
actually do provide a return on investment of significantly 
more than has to be expended.
    Can you explain the different ways that the money is 
recovered and how it should be invested back into V.A.? And if 
it were reinvested and you are generating that kind of return, 
why is it that you are not able to utilize that for additional 
FTEs in order to carry out your responsibilities?
    Because, I mean, you are definitely a great asset to the 
taxpayer and to the agency. You are conserving resources and 
recovering resources.
    Mr. Griffin. Thank you, Mr. Bishop. I don't know where the 
three-to-one number comes from. Is that in the department's 
documents?
    Mr. Bishop. Yes. It is in the budget----
    Mr. Griffin. In fiscal year 2014 our return on investment, 
which is a number that all I.Gs use, was 22-to-1, and that 
number reflects monetary benefits, money that could have been 
put to better use. It is mostly money that is identified in our 
audits that was either improperly spent or wasted.
    The recoveries result from our----
    Mr. Bishop. I think it was the recoveries that were three-
to-one.
    Mr. Griffin. Recoveries for the last 5 years were five-to-
one, and that was on criminal cases, that is when there is a 
quitam filed and the government recovers monies that were 
wrongfully obtained by private sector contractors.
    Now, some of that money, to the extent that we can 
demonstrate that V.A. procured a certain dollar value in drugs 
that were wrongly identified or were off-market labeling or 
what have you, V.A., once we can demonstrate through our work, 
``This is the amount of this drug V.A. purchased,'' then V.A. 
gets their share of the penalty money.
    A lot of our fines and recoveries are in criminal cases. 
That money goes to the U.S. government--mostly to the U.S. 
Treasury, sometimes to asset forfeiture funds. But at the end 
of the day, it is all money returned to the same U.S. 
government on behalf of the taxpayers.
    Mr. Bishop. I guess my question is you are struggling for a 
lack of resources. You don't have enough FTEs. You are 
generating significant recoveries.
    Do you have the flexibility, or does the Secretary have the 
flexibility, to utilize some of these recovery resources to 
supplement your FTEs, or do you need to come to us for 
additional authorities to do that?
    Mr. Griffin. I think that due to the independence of the 
I.Gs, you don't want to give the impression that we are 
beholden to the secretary to provide our funds. So that is why 
there is a separate line item in the budget. And when we don't 
get what we request, there is a narrative portion that we are 
supposed to tell the Congress, ``This is how much we asked for 
and this is how much we were given.''
    Mr. Bishop. So from the recoveries, though, does it come 
back to you or does it go back to the department?
    Mr. Griffin. No. No. It is for the good of the whole, but 
not to the I.G.
    Mr. Bishop. The whole department of the----
    Mr. Griffin. No. Some goes to V.A., some goes to the 
Treasury Department.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Dent. Thanks.
    Before I recognize Mr. Rooney I just want to say we are in 
votes. I think there are about 9 minutes left in the vote.

                             IDENTITY THEFT

    We will have Mr. Rooney proceed and then when he is 
finished we will recess briefly. It is only two votes, so we 
will vote on the two then come right back.
    So with that, I would like to recognize Mr. Rooney, for 5 
minutes?
    Mr. Rooney. Thank you, Mr. Chairman.
    My question is pretty brief and kind of specific to 
Florida, but I think it might reflect a larger issue which 
deals with patients at V.A.s and identity theft. We had an 
issue down in Tampa recently, at the James Haley V.A. Hospital 
where this guy, Willie Streater, was a contractor, and he was 
in charge of shredding some documents.
    Well, he didn't shred them, he sold them and the people 
that bought them, I guess, had filed fraudulent tax claims and 
got over $1 million for that. But it is not just that, it is 
benefits, it is being able to open lines of credit, health care 
fraud, all the things that we know are associated with identity 
theft.
    And so I guess my questions are, why do we still use Social 
Security numbers with regard to patients at the V.A.? Number 
two, would electronic records help this issue? And finally, why 
do we outsource with the V.A. the way that we do, especially 
when there is opportunity for people with felony criminal 
records to be, you know, employed by our taxpayer dollars?
    Mr. Griffin. Identity theft is a huge problem. In the last 
3 or 4 years it has been a growing area for our criminal 
investigative staff.
    We have sent alerts to the department about the seriousness 
of this issue, and in the case that you referred to, how easy 
it is for somebody to gain access to a sufficient amount of 
information to be able to file a fraudulent tax return.
    Frankly, Florida, unfortunately, is one of the leading 
areas where people have really made a career out of identity 
theft and the tax business. We have participated in task forces 
with the IRS and others to try to combat this. And as I said, 
we tried to alert the department on how critical it is that 
they guard this personal identity information.
    Certainly if it is electronic you won't have to worry about 
somebody getting access in the case you referred to for 
shredding purposes, but it doesn't preclude somebody who has 
access to that electronic data to also do things with it, 
because each account that you can provide the person with on 
the outside has got a dollar value that would be shocking, and 
it is a really serious problem.
    And then when the actual veteran tries to apply for his 
benefits the IRS says, ``Well, no. You already got your 
refund.''
    ``Well, no I didn't,'' and that can take a long time for 
all of that to get resolved.
    Mr. Rooney. What are your thoughts on the whole Social 
Security number issue, as opposed to using some other kind of 
identifying----
    Mr. Griffin. I think it would be a good idea not to use 
them. When we have to use them in order to identify medical 
records for our work, typically we will just get the last four 
digits of the Social Security number along with the name and we 
feel confident that we have got the right person and the right 
record.
    But clearly the Social Security number is one of the key 
numbers that the identity theft people like to get.
    Mr. Rooney. Thank you, Mr. Chairman. Yield back.
    Mr. Dent. Mrs. Roby, I was going to suggest maybe we go 
vote now, unless you want--do you have quick questions? Maybe 
we can do them quickly, or we can vote and come back.
    Let's go ahead. I recognize you for 5 minutes. Then we can 
run downstairs----

                          V.A. WHISTLEBLOWERS

    Mrs. Roby. Thank you for being here today. Certainly 
timely.
    I brought a visual aid--the front page of the Montgomery 
Advertiser--telling the story two individuals who were 
whistleblowers at the Central Alabama V.A.
    These two individuals couldn't take it anymore. They had to 
come forward. We protected their identities.
    If it weren't for these two individuals, we would not know 
even a fraction of what we know of the gross malfeasance that 
has been taking place at Central Alabama V.A.
    For those of you in the room that aren't familiar, 
everything from thousands of unread x-rays to a V.A. employee 
taking a veteran to a crack house. My office would not have 
been able to expose this culture and what is happening to our 
veterans in Alabama but for these courageous individuals who 
have stepped forward knowing that--in that particular 
environment--retaliation is a very real thing. Because of their 
frustration they finally exposed themselves because of what has 
been happening to our veterans.
    There was a second report today--news report today that 
demonstrates that this is happening all over the country with 
V.A. employees who consider themselves whistleblowers, that 
they, too, are being retaliated against. There are 120 active 
investigations into allegations of retaliation at the V.A., and 
so I would want you, as you are here to defend your budget 
request, to--this is my opportunity to hold you accountable as 
to what you are doing as it relates to these very problematic 
and disturbing instances where at the end of the day the people 
who are suffering the most are our veterans.
    And if we can't get it right by them in this country, I am 
not really sure what we can get right. So I would just ask you 
today to address this--why this is happening and why these 
individuals are not being protected properly.
    Mr. Griffin. I agree with you that our veterans deserve the 
best. I mentioned in my oral testimony that our contacts with 
our hotline are up 45 percent. We received 13,000 more contacts 
last year than the previous year.
    We are very pleased to hear from whistleblowers. Dr. 
Daigh's team has been doing work down in Central Alabama. Our 
criminal investigative team continues to have open work in 
Central Alabama.
    I don't know how much Dr. Daigh can talk about the 
specifics of what he is looking at down there, but we are 
responding to these things and we do take our job very 
seriously. And it is a tsunami of work, and we are trying to 
get through it as quickly as we can.
    David, I don't know if there is anything you can----
    Dr. Daigh. No, I would be glad to comment.
    I think that without whistleblowers government can't 
function correctly, so we are absolutely on the same page 
there. And I think that we need a mechanism for whistleblowers 
to come forward to lay out their allegations in as clear a 
fashion as possible. And then we need to be able to go look at 
those allegations as factually as we can, so that we have clear 
allegations and we have clear facts to either support or refute 
them.
    And I think sometimes--and then we need a management at 
V.A. that, when presented with facts, will aggressively 
respond.
    Mrs. Roby. Can I interrupt you for a second? It would be 
great if we could package it up that nicely.
    Dr. Daigh. Right.
    Mrs. Roby. But the way that this happened is the director 
at CAVHCS lied to me and then I went seeking information. And 
these two courageous individuals told me the truth, and now 
they have been subject to an investigation for telling their 
member of Congress the truth.
    So it wasn't like they came forward and said, ``I would 
like to sit down and talk to somebody about what is going on at 
Central Alabama.'' They read a news article where the director 
there lied to me and couldn't sit back and just take it.
    And so I hear what you are saying. It would be great if it 
was that simple, but it is not.
    Dr. Daigh. So in real life what happens--when we get 
allegations and we think that people in V.A. are lying, that 
management is not doing what they are supposed to be doing or 
not handling things correctly, then I walk down the hall and I 
talk to the head of investigations. And then the criminal 
investigation unit will go and address those issues, to the 
extent to determine whether we can put forward or collect the 
data required to make the case we need to make.
    So we are not shy about switching quickly between an 
allegation in my office, an allegation that would best be 
handled by audit, or an allegation that would best be handled 
by the investigators. That happens all the time.
    Typically, what happens if the investigators start down the 
road and there is some health care aspect to it then they are 
the leaders. I append either a physician or a nurse or social 
worker, depending on what is required to support their 
understanding of the data, and often reading the medical chart 
or interpreting some of the hospital data requires someone who 
does that for a living. And we work together as a team.
    Mrs. Roby. I am making my chairman nervous because the red 
light is flashing and the time has run out on our votes, but I 
just want a real commitment from you guys that you are 
committed to ensuring that these individuals, not just at 
Central Alabama but all over the country, that we take this 
very seriously and do all that we can through your office and 
others to ensure that this is not being covered up, that these 
individuals are recognized for their courage.
    Mr. Griffin. Could I just say that we do work very closely 
with the Office of Special Counsel that has statutory authority 
for whistleblowers, and I believe the director is gone, isn't 
he?
    Mrs. Roby. Yes, he is.
    Thank you.
    Sorry, Mr. Chairman.
    Mr. Dent. No. They were important questions.
    With zero on the clock 217 members have not yet voted, so 
what we will do is we will recess this meeting to the call of 
the chair, but I suspect we will just be back within 10 
minutes, and respectful of your time, as well.
    So thank you. This meeting is in recess to the call of the 
chair.
    [Recess.]
    Mr. Dent. We would like to bring to order this recessed 
meeting of the Subcommittee on Military Construction and V.A. 
We are going to move into our second round of questions right 
now.

                       STANDARDIZED AUDIT REPORTS

    And I know we have to be respectful of your time, Mr. 
Griffin, but I just wanted to start off with Tomah, once again, 
and one question I asked didn't get a chance to answer. Is 
there no standard policy for a government--for government-
wide--a standard wide policy for I.G.s to follow about the 
circumstances in which I.G.s must release the reports from 
their investigations and audits?
    Mr. Griffin. I believe it is pretty standardized on audit 
reports. Our audit reports get sent to the Hill and sent to the 
department at the same time, simultaneously, electronically.
    If we have a restricted report, which means that there 
would be Privacy Act issues in the report, we post the title of 
the report, and if we get three requests from the public for 
that report we will then redact it and post the redacted 
version on our Web site. Other IGs do administrative closures 
just like we do, and it is a question of if it is a dry well, 
let's not waste our resources on it.
    Mr. Dent. Got it.
    I would like to now move on to the ongoing I.G. review at 
the Philadelphia Regional Office. We understand that your 
office has been doing a review during the past 6 months at the 
Philadelphia Regional Office and that so many allegations have 
been raised by office employees that you won't be able to 
investigate each allegation individually. Press reports 
indicate that the concerns being raised include mismanagement, 
retaliation, wasted government resources, and lack of 
accountability for certain managers.
    I realize the report is not yet completed, but can you give 
us a sense of the scope of the problems in Philly, and how does 
that office rank relative to other regional offices? Are these 
problems that you see throughout the country? Is Philadelphia 
responding to the allegations with staff changes and procedural 
fixes?
    Mr. Griffin. They have put new leadership in Philadelphia. 
Frankly, we completed our draft report within the past week on 
Philadelphia. It was a project that just kept growing. Every 
time we went back there, more issues were put on our plate.
    If you had a checklist of possible problem areas in 
different locations in VBA regional offices, you could have 
checked just about every one of them that came to our attention 
in Philly as far as misplaced mail, unprocessed claims. There 
were issues in the Veterans Service Center, they have got an 
insurance center up there, they have got two call centers. We 
had issues in all of those locations.
    So it is a major project to get it back on track where it 
needs to be. I am sure we will have many, many recommendations 
in the report.
    Typically, we ask for a response from the department within 
2 weeks on a report like that so, you know, it should be out 
soon, I guess that is the principal message here.
    And as far as how it might compare to other facilities, it 
is very bad. And there are a number of whistleblowers involved 
there, there are a number of accusations against management 
there, and that is why it has taken several months to try and 
get through it all.
    Mr. Dent. Thank you.
    I would like to quickly move over to the contract review of 
the Denver hospital. The inspector general has an Office of 
Contract Review. Does this office have a regular role in 
reviewing V.A. construction documents, and has that office been 
involved in the controversy about the contract for the Denver 
V.A. Hospital?
    Has your office done programmatic reviews of the Denver 
construction project during its long history? And if so, what 
systematic problems has the Denver experience revealed about 
the V.A. construction process?
    And just a point of clarification for the members, I think 
you should all be aware by now, but the total cost, according 
to Sloan Gibson, over the Denver V.A. Hospital is at $1.73 
billion, and that is leaving an unfunded amount of about $830 
million, which is just eye-popping, and I know the authorizers 
are extremely upset about this.
    But it is a very serious matter and we are watching this 
issue very, very closely, as--from the appropriations side 
because of this colossal problem that, you know, has been 
dumped on our lap and we are being asked to resolve.
    Mr. Griffin. I would share with you that our audit staff 
had received a congressional request over a year ago to look at 
Denver. They started scoping the project and doing some 
preliminary work and then we discovered that a law suit had 
been filed in court by the contractor over payment issues.
    It is similar to tort claims being filed by family members 
who think that their loved one got improper medical care in a 
V.A. facility. Once a tort claim gets filed it becomes a matter 
for the Justice Department and the legal system to make the 
call on whether or not the tort claim is righteous, which would 
cause us to shut down a review of our health care staff on the 
same subject, because at that point it is in the courts.
    We are capable of doing a review of hospital construction. 
We are going to launch a review. I had a request the other day 
from Chairman Miller of House Veterans Affairs on the same 
subject.
    Most of the problems seem to be when you get into change 
orders and lack of oversight as the project is rolling out. And 
something else we want to look at, the previous secretary had 
created a V.A. Construction Review Council a couple years ago, 
which apparently didn't succeed in Denver. But we want to look 
and see what has that Construction Review Council done, and 
what is their charter, and does it have the right expertise in 
engineering and construction and what have you to do what they 
were set out to do?
    Personally in V.A. they have got three levels of hospitals. 
There are large ones that have the most sophisticated staff and 
can handle the most difficult procedures; there are medium-
sized; and then there are small ones that are the least 
complex.
    Most of the hospitals are very old, but when you 
successfully build one somewhere and you decide we need one in 
Orlando, or we need one in Aurora, Colorado, or we need one in 
New Orleans, which are where we have activities right now, and 
you have got the plans for one that came in on time and on 
budget, let's not reinvent the wheel if it is a similar area 
that you are trying to service.
    So we are going to look into that. It won't help any with 
the end game on the cost in Denver, but we want to find out why 
it happened.
    Mr. Dent. Well, thank you. We want you to stay on top of 
that because this project at $1.73 billion is more than five 
times the facility's original estimate of $328 million. I have 
never seen a construction disaster of this proportion.

                       OFFICE OF CONTRACT REVIEW

    I know the ranking member has concerns as well. And so with 
that, I would like to recognize the ranking member for 5 
minutes.
    Mr. Bishop. Thank you very much.
    I know that your office has a role of counsel, and I.G. has 
a contract compliance role. Is that a before-the-fact or only 
an after-the-fact role? Does that particular counselor in your 
office actually oversee the negotiation of the contract to make 
sure the parameters are appropriate, or is it only an after-
action review at the end of the day?
    I am concerned about that, to find out whether or not and 
to what extent your office knew about what was happening in 
Denver and how early it was known? I understand that this is 
under investigation and may be involved in litigation, and 
there may be some limits of what you can and can't say. But 
from the procedural perspective and our oversight, I would like 
to have some idea of how early your agency or your counsel was 
able to get involved in these kinds of things, because as I 
understand it, this contract was very unusual in that they 
were--they said for X number of dollars this contractor agreed 
to build to whatever specifications that V.A. wanted.
    And apparently that was fine until the change orders 
started to come in. I am trying to understand how there was 
such a tremendous gap, why it took so long for somebody to 
recognize that the expected expenditures and the ultimate needs 
were going to be--there was going to be such a big gap.
    Mr. Griffin. My Counselor's group is the Office of Contract 
Review. You asked about that group and their responsibilities.
    Our audit staff was the group that was going to look at 
Denver until the case wound up in court. We were not involved 
in the planning. That is a program function of the department.
    The Office of Contract Review does pre-award audits when 
things are going to be placed on the federal supply schedule. 
The government, being the huge purchaser that it is, is 
supposed to get most-favored-customer pricing.
    When somebody wants to sell the government aspirin or 
whatever the higher-cost drug might be, we want to make sure 
that V.A. is getting a competitive price. So they will do a 
pre-award to make sure that the contracting officer, who 
actually works for V.A. is getting advice from our staff and 
make sure that they take that advice, and ask the right 
questions, and get the best price.
    On the other end, there is a post-award review, where if 
the vendor tells us or tells V.A., ``We will sell this pill for 
a dollar apiece to you because you are the V.A. and you are a 
big buyer,'' and we find out later on they are selling it to 
Walmart for less money----
    Mr. Bishop. I am particularly interested in this 
construction, though.
    Mr. Griffin. We are going to look at that in the future. We 
were not involved in the planning of that facility and when we 
tried to initiate a review it was already in court. We will be 
looking at it in the future.
    Mr. Bishop. You couldn't look at it if it is in court?
    Mr. Griffin. The judge would decide.
    Mr. Bishop. I understand the judge would decide, but I am 
saying if it is in court, but you still should have the 
opportunity to be able to review the documents and the status 
of the case and have access to the court records, shouldn't 
you?
    Mr. Griffin. Well, we can get access and we will, but while 
it is being adjudicated in court our decision wouldn't trump 
the judge's decision.
    Mr. Bishop. I understand that, but I am just saying for 
purposes of planning and for purposes of understanding what 
took place, and to be able to intercede at the earliest 
possible moment to stop it from reoccurring in another 
instance--in another similar instance--it seems to me that the 
sooner you can get access to that information, whether it is in 
court or under investigation, whatever, the better it will be 
for the department.
    Mr. Griffin. I don't disagree. Unfortunately, this is not 
an isolated incident, as you know.
    Mr. Dent. I thank the ranking member.
    At this time I would like to recognize Mr. Joyce for 5 
minutes.
    Mr. Joyce. I thank you, Mr. Chairman.
    I thank you both for being here.
    I would like to follow up on the ranking member's comments, 
though, I think it would be critically important to have some 
understanding of what took place there so that you can advise 
and counsel that it doesn't occur again in the initial startups 
of any of these buildings or things that you have going up 
within the Department of Veterans Affairs. And I don't take it 
lightly, because I spent 25 years as a D.A. before I got here, 
so it is one of those things where I really view your position 
as the most important at the V.A. to make sure these types of 
things don't happen.
    The things that happened in the V.A.--I want to go back 
to--and I understand the chairman may have asked some of these 
questions before, and unfortunately I am on three committees 
and all three had hearings this morning, so I apologize if I am 
touching into something you already went on. But I noticed that 
you launched 98 other investigations into manipulations at the 
fallout from the Phoenix center, and that your testimony notes 
44 of those have been referred to the V.A. Office of 
Accountability Review to address the management issues.
    The other 54 sites are still under investigation. Could you 
share with this committee what type of conduct or mismanagement 
led to the 44 referrals to the V.A. Office of Accountability 
Review so far?
    Mr. Griffin. There has been a range of different 
methodologies involved in creating fictitious access time 
lists, et cetera, and some of them were potentially criminal, 
some of them didn't rise to the level, in the view of the U.S. 
Attorney's Office, to be prosecuted as criminal, and when that 
happens we turn them over to the Office of Accountability 
Review.
    Mr. Joyce. Why not the local authorities? A theft is a 
theft.
    Mr. Griffin. Well, you have to prove criminal intent in 
every instance, and in some instances there were schedulers who 
would take a call, veteran says, ``I need an appointment 
because I have got this issue or that issue,'' scheduler would 
book it, the next available appointment that they had open at 
that facility, and if it was 120 days from now they would say 
to the veteran, ``Well, Mr. Veteran, can you come in on July 
15th? That is our next available appointment.''
    So you are given an option of one date 120 days from now. 
You trust that that is the first available date so you say, 
``Well, yes, I guess I will take it.''
    Well, when that gets scored as your desired date, that is 
not really what you wanted. You would like to come in tomorrow, 
but when it gets scored that way, now you are down in the 
lowest level of the appointment chain, and for some of the 
schedulers they didn't know any different. They thought, 
``Well, this is the next appointment I have. I can't create 
something out of nothing. If we don't have the staff here to 
get this veteran in sooner,''--some didn't realize it was wrong 
because it was the only thing they ever knew.
    They didn't realize the bigger picture that if the Congress 
was not aware of the existence of these waiting times and the 
demand, which has been recognized now--I know Mr. Jolly co-
sponsored one of the bills on this--you wouldn't have got that 
$16 billion in the pipeline to try and hire more staff and 
create a choice card and everything else. I mean, that is the 
fallacy of it.
    We reported for 10 years on waiting times deficiencies, and 
it only caught fire in the past year.
    Mr. Joyce. But somewhere in the chain of command people 
were manipulating data, correct?
    Mr. Griffin. That is right.
    Mr. Joyce. Okay. And so the person manipulating that data 
in order to get a bonus, that is not a theft to you?
    Mr. Griffin. The performance appraisals in VHA, as you may 
know from your time there, might have 100 elements that people 
are rated on, one of which might be access to care. In many 
facilities--they are not the same elements. Someone might say, 
``These are the five biggest challenges we have this year in 
our network or in our medical center,'' so the director says, 
``I am going to go after these five things this year.'' Access 
might not be near the top of his list.
    Don't misunderstand. It is outrageous. It is outrageous 
when the principal deputy Under Secretary in VHA sends a letter 
to the whole system and says, ``Stop cooking the books,'' and 
says to the leadership out there, ``This is how they are doing 
it. This is how you can catch it.'' They institute a policy to 
require certification that their numbers are legitimate, and a 
short time later they kill the requirement.
    It is outrageous. Believe me, I am with you. And I would 
like every case we investigate to be prosecuted, but I can't 
control that.
    Mr. Joyce. Well, I think it is ludicrous they have bonuses 
in place where they can manipulate things to actually get the 
bonus. People should get paid to do a day's work.
    Mr. Griffin. Absolutely.
    Mr. Joyce. And if you don't do the day's work to the best 
of your God-given ability you should be fired.
    Mr. Griffin. Absolutely.
    Mr. Joyce. I see I am out of time, Mr. Chairman, but I will 
come back later. Thank you.
    Mr. Dent. Thank you.
    Mr. Jolly.

                          OPIATE PRESCRIPTIONS

    Mr. Jolly. Thank you, Mr. Chairman. Just a couple quick 
questions.
    You have studied the opiate prescription issue at length 
several times over the course of the years. What is your 
system-wide assessment, or your findings, perhaps, from 
previous reports? I mean, it can't simply be the one location.
    Mr. Griffin. Right. Dr. Daigh's team published a national 
review last May; it identified a half a dozen different problem 
areas from bad mixing of different drugs and what have you. And 
we also published nine other individual reports on opioid use.
    I would ask David to speak to the national findings.
    Dr. Daigh. So in the timeframe of 2012, which is the data 
that we were able to look at everybody in V.A. who received 
opioids, there were a couple of problems that stood out. The 
percentage of veterans who were on chronic opioids who also 
have substance use disorder--that is, they are addicted to 
narcotics of one sort or another--is in the range of 10 or 12 
percent. The percent of veterans who, in the same category, 
have significant mental illness is in the range of 40 percent.
    So you have a group of patients that have a very complex 
chronic disease burden that are very difficult to take care of.
    Notwithstanding that, there is a guideline that has been 
put out by DOD and V.A., that talks about the proper use of 
narcotics in patients who are taking chronic opioids, and the 
bottom line is that V.A. providers were not following, really 
with astounding figures, the advice of the guideline.
    So, for example, you are supposed to get a urine drug 
screen at certain intervals. Wasn't occurring.
    You are supposed to not give refills--early refills under 
certain circumstances. That was also not occurring.
    So everywhere we have looked across the system we have seen 
that as a major problem.
    Mr. Jolly. What triggers a site-specific review for your 
office?
    Dr. Daigh. At current time, last year we got 2,400 
complaints of health care issues that came to my group. That 
works out to be something like 10 a workday, plus. So we look 
at those.
    A portion of those I don't have the manpower to address so 
I send a letter to the director of the VISN, usually above the 
facility, and say, ``Please respond to these allegations,'' 
having removed the person who made the allegation, trying to 
get by the whistleblower issues. We pick about 60 or 70 cases--
that is about the workload I have--and we go and look at those.
    It is a combination of if everybody is out looking at 
Phoenix, I have to send some out. If people are in the office 
and we have the workload then we go out and look at them.
    So essentially, it is an allegation either from our doing a 
CAP and serving employees and hearing that there are problems 
with narcotic use--we would then trigger a hotline.
    Mr. Jolly. So you are responding, basically, that if you 
can see site-specific allegations or concerns, and obviously if 
you see a cluster of them, that is where. Shifting gears real 
quickly, and I have raised the issue with the Secretary.

                        INACCURATE DEATH NOTICE

    I have only been in office for a year, and at least four 
times now I have had a constituent come in with a letter from 
the V.A. expressing their regret at the veteran's passing, but 
the veteran is actually fully alive. It is very disruptive to 
their benefits. We work it, and about 2 months later they get a 
letter saying, ``We have reviewed your file and determined you 
are, in fact, alive.''
    It is, as you can imagine, disruptive for benefits and so 
forth.
    The secretary has indicated it is something he is working 
on. He has kind of put it on Social Security.
    Has your office ever looked at this? I mean, I realize it 
is not a crushing issue in everything else you are dealing 
with, but have you had any exposure to this or looked at this?
    Mr. Griffin. We are aware of the anecdotal type stories 
that you have mentioned, and I don't know what to attribute----
    Mr. Jolly. Okay. That is fine. And it is just a curiosity.
    Mr. Griffin [continuing]. Different kind of review or 
anything.
    Mr. Jolly. I appreciate the Secretary's affirmation that he 
is looking into it.
    Mr. Chairman, no further questions. The only thing I would 
say on the record is I would hope our subcommittee can find a 
way to improve on the President's request for OIG.
    In this year, in this time window, to give our stamp of 
approval to a budget for the OIG that requires a reduction of 
10 full-time employees is an issue of great concern. If 
anything, I think we need to be looking at how to improve the 
resources and personnel to provide the investigations and 
oversight into the V.A.
    So I appreciate it. Thank you.
    Mr. Dent. I appreciate the member's comments, and we are 
going to do our best on that front.
    Now I recognize Mr. Fortenberry for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Good morning, gentlemen.

                          BROKERING OUT CLAIMS

    Nebraska has one of the highest V.A. rated systems, and we 
are proud of that. But an ancillary problem to the larger 
problem of claims processing and patient management load is 
that Nebraska has taken on work from other states. Now, I think 
they have gladly done that and absorbed that with the capacity 
we have, but we can't get in a situation that starts--where 
that starts to create backlogs for ourselves.
    We have been informed by several groups that that appears 
to be the case. Are you aware of this dynamic?
    Mr. Griffin. We are aware and we have done an audit on the 
process of brokering out claims. I am from the Heartland 
myself.
    Mr. Fortenberry. Well, no wonder you talk so plainly and 
give straightforward answers. Thank you.
    Mr. Griffin. People out there in some of those offices out 
there would just seem to be able to get the job done. It is 
cost of living, maybe it is better management----
    Mr. Fortenberry. Good clean living----
    Mr. Griffin. Exactly. But we did a review of this policy 
that VBA had of shipping around these claim forms, and 
naturally, if you are the person who owns the claim that is 2 
years old you are happy to ship it off to somebody else.
    If you are on the receiving end, frequently there is a 
reason why it is 2 years old. It wasn't a ground ball, or it 
wasn't something that somebody could grab hold of and quickly 
dispose of and, and resolve the issue.
    We found that the brokered claims that we looked at--and I 
would be pleased to send a copy of that review up to you so you 
can have the information in it, actually extended the time 
period to get the things done----
    Mr. Fortenberry. Oh, is that right?
    Mr. Griffin [continuing]. As opposed to----
    Mr. Fortenberry. Further complicated the situation?
    Mr. Griffin. Yes.
    Mr. Fortenberry. Well, that is another ripple effect of the 
initial core problem, so appreciate your awareness of that.
    Mr. Griffin. And frankly, when everything is electronic--it 
is still a work in progress--it will even be easier to 
electronically transfer a claim to a more productive office, 
which conceptually might not be a bad idea, but maybe you need 
twice as many people in your office in Nebraska and then you 
can do more workload.

                      CENSORSHIP OF V.A. CHAPLAINS

    Mr. Fortenberry. I want to turn to a second issue. There 
are several court cases where--involving V.A. chaplains who 
were censored and prohibited from applying the tenets of their 
beliefs. I don't have the latest information on that, but 
apparently in 2013 several were forced out of the chaplain 
training program.
    Is this something that you investigate to ensure that the 
V.A. is not acting out of discord or confusion or against legal 
precedent?
    Mr. Griffin. I can tell you we have not investigated that 
to date. If there is more information that you would like to 
provide to my staff we will be happy to look into it.
    Mr. Fortenberry. My own information is a bit limited, but 
apparently these--this is some--there is a manifestation of 
some real problem here. But if you would be willing to receive 
additional information as we get it, that would be helpful.
    Mr. Griffin. Please do.
    Mr. Fortenberry. Thank you, Mr. Chair.
    Mr. Dent. Thank you. And if there are other, further 
questions from any of the members----
    Mr. Joyce. Yes.
    Mr. Dent. And before you do, I was going to ask just one 
question----
    Mr. Joyce. Sure.
    Mr. Dent. If it is okay with the ranking member, I would 
just ask--recognize Mr. Joyce briefly afterwards.

                LEGIONNAIRES DISEASE IN V.A. FACILITIES

    So with that, I just wanted to ask my other question, Mr. 
Griffin, on Legionnaires' disease in V.A. facilities. Your 
office was very active in exposing the Legionnaires' disease 
patient care problems in some Pennsylvania facilities. In 
response, the V.A. is using a total of $167 million in the 2015 
and 2016 Choice Act funding to make infrastructure changes to 
prevent the recurrence of the Legionnaires' situation.
    Do you think the V.A. plans are sufficient to address this 
problem?
    Mr. Griffin. We did do the specific review in Pittsburgh. 
We also did a national review.
    I am going to ask David to respond to that. It is not 
unique to V.A. facilities, and there is actually a higher 
percentage of these problems in the Northeast than there is in 
other parts of the country. But David could speak more 
eloquently to the problem.
    Dr. Daigh. Legionella is in everyone's groundwater, so 
depending on the exact species of Legionella that is in the 
groundwater where you reside then everyone is at some risk for 
it. It is a national problem. V.A. does have a national attempt 
to deal with this problem.
    I am not aware of exactly the program you are talking about 
that would--that you are speaking of for $167 million. I don't 
know exactly what they are doing.
    But clearly there does need to be an effort to try to 
ensure that the water going into hospitals does not contain 
pathogens like Legionella. So I haven't looked at that--I don't 
know what that buys, is what I am trying to say, in order to 
answer your question directly.
    Mr. Dent. Thank you.
    Does the ranking member have any additional questions?
    Okay. Then we will recognize Mr. Joyce, and then that will 
end the hearing.

                        PHOENIX RECOMMENDATIONS

    Mr. Joyce. Thank you, Mr. Chairman.
    In your testimony you referred to 24 recommendations that 
the V.A. made to implement immediate and substantive changes in 
response to rampant fraud in the scheduling system. As of March 
2nd this year, 18 recommendations are still open.
    What development have you seen in implementing those 18 
remaining recommendations?
    Mr. Griffin. You are referring to the Phoenix 
recommendations----
    Mr. Joyce. Correct.
    Mr. Griffin [continuing]. Right?
    I would like to give you all 18 for the record, if I may, 
because I don't have all 18 of them on the tip of my tongue.
    Mr. Joyce. Sure.
    Mr. Griffin. One of the principal recommendations was to 
finally, after many years of abortive attempts to create a 
viable scheduling system, that the V.A. get that system in 
place that can be remotely audited. So if someone in a facility 
is playing games with the numbers, that could be detected 
remotely by somebody in the main V.A. in the I.T. world or in 
VHA.
    I know that they put out some requests for proposals on how 
they might do that. There are some off-the-shelf applications; 
they are being reviewed.
    I think from the standpoint of being able to demonstrate a 
serious requirement being addressed, that would be one of them.
    The old system, if a person wanted or if a doctor wanted to 
see the veteran in 6 months, software wouldn't allow them to 
schedule it immediately because it was too far out, which is 
part of the answer, frankly, on some of these paper wait lists. 
In order to keep track of those to insert them when you were 
within the window of being able to put them into the system, 
they maintained separate lists instead of the electronic wait 
list, which wasn't capable of handling that information.
    So certainly one of the key recommendations was on 
accountability, and that is a work in progress.
    I don't know, David, if anything comes to mind.
    Dr. Daigh. There were a number of ethics issues and 
adjustments they were going to make in terms of how they train 
their workforce, and there is also the issue of notifying and 
reviewing the cases we identified where harm had occurred--both 
of deaths and harm that we had heard. And I don't know exactly 
where they are on notification for those cases, but that would 
be part of what we could provide back to you in follow-up.
    Mr. Joyce. Do you feel that it is part of a 
decentralization? I heard you say that you want to find 
something where you can remotely check to make sure that the 
numbers are not being manipulated, and this occurred as a fault 
of V.A. sort of being decentralized while at these different 
establishments and it would be better if we had it under a 
central unit.
    Mr. Griffin. As President Reagan once say--said, ``Trust 
but verify.''
    Mr. Joyce. Yes. Absolutely.
    Mr. Griffin. I think to have the capability to monitor 
remotely what is going on would certainly put a little strength 
in the system. I do believe that because this went on so long 
that people just get blase about it, they didn't think about 
it.
    Over 10 years we did 20 reports on this. We testified 19 
times before the Congress. And finally it got traction, thanks 
to some aggressive oversight from the Hill.
    When you have the second or third-highest person in VHA 
sending out a directive saying, ``Knock it off,'' and making a 
requirement for certification and then very quickly it is 
removed, it went to the highest levels, and it certainly 
existed at the director level in some facilities. I am not 
saying everybody, but it was accepted practice.
    And it might have been--I mean, if a director said, ``We 
don't have enough doctors to do these things in 30 days,'' and 
then the requirement got cut to 14 days, well, if you can't get 
them done in 30 days you are not going to get them done in 14 
days.
    I referred to a stretch goal, you want people to stretch 
and do the best they can, but if it is unrealistic, people in 
the field might be saying, ``What are they thinking about? We 
are drowning in veteran demand and we don't have the resources 
to deal with it.''
    So there needed to be some honesty and say, ``Look, we 
either need twice as much money to do fee basis work, or we 
need this number of clinicians.'' But if you don't have 
staffing standards, it is hard to determine what the number of 
clinicians is that you need, so we have been beating that drum 
also.
    Mr. Joyce. It is just astounding, don't you agree, that 
there are no red flags or bells and whistles that were set off 
that would have caught this very early in the stages? As you 
say, it went up the chain of command, and the quick rescission 
of that must have made everyone think that this is okay, this 
is standard----
    Mr. Griffin. It was a failure in leadership at multiple 
levels.
    Mr. Joyce. Well, you know, just briefly, what we can do to 
help you to that effect, please let us know. Because I think 
everyone here is committed to make sure that it doesn't ever 
happen again, or we clean up the system that is in place.
    And secondly, you know, I know there are a lot of young 
prosecutors, ladies and gentlemen, in city and county offices 
who also have veterans in their jurisdiction and would be glad 
to help you and assist you. I know the Department of Justice is 
very busy, and that the U.S. Attorney's Offices are busy, but 
theft is theft, and so any way we could help you or they could 
help you let us know.
    Mr. Griffin. We want to do quality and timely work, and at 
the current inflow of requests that we get, we can't do it. And 
it disturbs me greatly.
    And as I said earlier, we have a 38 percent increase in 
requests from the Congress. If you send me a request I don't 
want to take a year or 8 months or whatever to do it; I would 
like to turn it around in 90 days possibly--quicker if 
possible.
    But when these things--when you get any of these things 
like Phoenix--Phoenix consumed half of our staff for the better 
part of a year. This Philadelphia review just kept growing and 
growing and growing.
    And we want to be part of the solution, and in order to do 
that you have to be able to do things timely, make solid 
recommendations that everybody understands, get the department 
to acknowledge, ``Yes, we admit we have a problem,'' and make 
them describe the solution, and then we follow up until it 
happens. That is what we want to do.
    Mr. Joyce. Thank you very much. Good luck.
    Mr. Dent. Well, thank you. This concludes our hearing.
    I have several more questions I am going to submit for the 
record, and hopefully you can get back to us on those two 
questions, which I think you already partially addressed.
    So with that, I want to thank everybody for your attendance 
today.
    Appreciate your presence today, Mr. Griffin and Dr. Daigh. 
At this time, this meeting of the subcommittee is 
adjourned.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
